No. 19IN THE

6uprente Court of tbe Iluiteb €tate5
HUNTER FUSSELL, an individual,
Petitioner,
v.
STATE OF LOUISIANA,
Respondent.
On Petition For A Writ Of Certiorari
To The Louisiana Supreme Court
PETITION FOR A WRIT OF CERTIORARI
Shannon Christian
22nd JDC Public
Defender's Office
402 North Jefferson
Avenue
Covington, LA 70433
(985) 809-1498

Adam Pierson

Counsel of Record
Kenneth Schmetterer
Trumon Phillips
Virginia Weeks

Dante Alessandri
DLA Piper LLP (US)
1900 N. Pearl Street
Suite 2200
Dallas, Texas 75201
(214) 743-4512
adam.pierson@dlapiper.com

Counsel for Petitioner

1
QUESTIONS PRESENTED
The transfer of a child from juvenile court to a
criminal court is a "critically important action." Kent
v. United States, 383 U.S. 541, 556 (1966). It exposes
children to increased prison sentences, placement in
an adult prison system, and criminal proceedings for
which they are at a "significant disadvantage [.]" Graham v. Florida, 560 U.S. 48, 78 (2010). Multiple
courts have held that the Due Process Clause
protects children from an arbitrary transfer. Others
will give a child due process protections only if a
state statute creates a liberty interest for the child to
remain in juvenile court. Those courts, however,
disagree over when a state creates a liberty interest.
The decision below places Louisiana squarely on the
most restrictive end of this range by allowing the
automatic and irrevocable transfer of a 15-year-old
child from the jurisdiction of a juvenile court to a
criminal court without due process.
The questions presented are:
1. Whether the Due Process Clause requires that
a child receive an individualized hearing before being placed in criminal court to be tried as an adult.
2. Whether a state statute that places children
in the exclusive jurisdiction of its juvenile courts creates a liberty interest that is protected by the Due
Process Clause.

11
PARTIES TO THE PROCEEDING
Petitioner Hunter Fussell is the defendantappellee below.
Respondent the State of Louisiana is the plaintiffappellant below.

111
TABLE OF CONTENTS
QUESTIONS PRESENTED

i

PARTIES TO THE PROCEEDING
TABLE OF CONTENTS

ii
iii

OPINIONS BELOW

1

STATEMENT OF JURISDICTION

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED

2

INTRODUCTION

3

STATEMENT

6

REASONS FOR GRANTING THE PETITION .... 10
I.

THE COURT SHOULD RESOLVE THE
CONFUSION REGARDING THE DUE
PROCESS RIGHTS GRANTED TO
CHILDREN CHARGED WITH CRIMINAL
CONDUCT.
10

II. THIS CASE PRESENTS AN IDEAL
OPPORTUNITY TO RESOLVE THE ISSUE
OF DUE PROCESS RIGHTS FOR
CHILDREN.
15
A. The decision below ignored the liberty
interest created for children by the Due
Process Clause.
16

iv
B. The decision below ignored the liberty
interest created by the Louisiana
Children's Code.
21
III. A CHILD'S DUE PROCESS RIGHT IS AN
IMPORTANT ISSUE.
26
A. Several jurisdictions allow the automatic
of
children
to
criminal
transfer
jurisdiction, often from a juvenile court's
26
jurisdiction
B. Treating children as adults harms the
child and harms society
29
CONCLUSION

31

APPENDIX INDEX
APPENDIX A—December 11, 2019 Louisiana
Supreme Court Opinion
la
APPENDIX B—April 24, 2019 Louisiana
22nd Judicial District Court Reasons for Judgement Granting Motion to Quash
31a

TABLE OF AUTHORITIES
Page(s)
CASES
In re Boot,
925 P.2d 964 (Wash. 1996)
Bouge v. Reed,
459 P.2d 869 (Or. 1969)
Breed v. Jones,
421 U.S. 519 (1975)
C.D. v. State,
458 P.3d 81 (Alaska 2020)
Flakes v. People,
153 P.3d 427 (Colo. 2007), as modified
on denial of reh'g (Mar. 19, 2007) (en
bane)

5

15, 16

i, 7, 31

17

15, 16

Gagnon v. Scarpelli,
411 U.S. 778 (1973)

28

In re Gault,
387 U.S. 1 (1967)

12

Gingerich v. State,
979 N.E.2d 694 (Ind. Ct. App. 2012)
Graham v. Florida,
560 U.S. 48 (2010), as modified (July 6,
2010)

18, 33

passim

vi
J.D.B. v. North Carolina,
564 U.S. 261 (2011)

24, 25

Kent v. United States,
383 U.S. 541 (1966)

passim

Miller v. Alabama,
567 U.S. 460 (2012)

passim

Morrissey v. Brewer,
408 U.S. 471 (1972)

28, 29

People v. Patterson,
25 N.E.3d 526 (III. 2014)

17

Rapier v. Harris,
172 F.3d 999 (7th Cir. 1999)

23

Roper v. Simmons,
543 U.S. 551 (2005)

passim

Smith v. Sullivan,
1 F. Supp. 2d 206 (W.D.N.Y. 1998)

17, 32

State ex rel. S.D., 832 So. 2d 415 (La. App. 4
Cir. 2002)

31

State v. Brown,
879 So. 2d 1276 (La. 2004)

38

State v. Grigsby,
818 N.W.2d 511 (Minn. 2012)

17, 32, 33

State v. Watkins,
423 P.3d 830 (Wash. 2018)

16, 17, 18

vii

Thompson v. Oklahoma,
487 U.S. 815 (1988)........................................24, 26
United States v. Bland,
472 F.2d 1329 (D.C. Cir. 1972) ............................18
Vitek v. Jones,
445 U.S. 480 (1980).................................. 22, 23, 28
Washington v. Glucksberg,
521 U.S. 702 (1997)..............................................22
Wilkinson v. Austin,
545 U.S. 209 (2005)........................................14, 22
Woodard v. Wainwright,
556 F.2d 781 (5th Cir. 1977)................................15
Youngberg v. Romeo,
457 U.S. 307 (1982)..............................................22
CONSTITUTIONAL PROVISION
U.S. Const. amend. XIV ................................ 2, 28, 29
STATUTES
28 U.S.C. § 1257 ..........................................................2
34 U.S.C. § 30301 ......................................................26
42 U.S.C. § 15601 ......................................................26
Ala. Code § 12-15-204 ................................... 34, 35, 36
Alaska Stat. § 47.12.030 ...........................................37

viii
Alaska Stat. § 47.12.100

34, 35, 36

Ariz. Rev. Stat. § 13-501

34, 35

Ark. Code § 9-27-318

34, 35

Cal. Welf. & Inst. Code §§ 602, 707

34, 35

Colo. Rev. Stat. § 19-2-517

34, 35

Conn. Gen. Stat. § 46b-127

34

D.C. Code § 16-2301
Del. Code tit. 11, § 1447A
Fla. Stat. § 985.557
Ga. Code § 15-11-560

34, 35, 36
34
34, 35, 36
34

Idaho Code § 20-509

34, 35, 36

Ill. Comp. Stat. 405/5-130

34, 35, 36

Ind. Code § 31-30-1-4

34, 35, 36

Iowa Code § 232.8

34, 35

La. Child. Code art. 102

18

La. Child. Code art. 305

passim

La. Child. Code art. 404

39

La. Child. Code art. 801

20

La. Child. Code art. 877

19

ix
La. Child. Code art. 884

38

La. Child. Code art. 897

19

La. Child. Code art. 897.1

6, 31

La. Child. Code art. 901

19

La. Child. Code art. 917

9

La. Child. Code art. 918

19, 39

La. Code Crim. Proc. art. 578

19

La. Code Crim. Proc. art. 977

9

La. Rev. Stat. § 15:574.4

7, 9, 21, 32

La. Rev. Stat. § 15:828

9, 39

La. Rev. Stat. § 15:906

32

La. Rev. Stat. § 17:10.9

9, 19

La. Rev. Stat. § 17:3911

19

La. Rev. Stat. § 42:1701

39

Mass. Gen. Laws ch. 119, § 54

35

Mass. Gen. Laws ch. 119, § 74

34, 36

Md. Code, Cts. & Jud. Proc. § 3-8A-03

34, 35

Mich. Comp. Laws § 600.606

34, 35

Minn. Stat. § 260B.007

34, 35, 36

Miss. Code § 43-21-151

34, 35

Mont. Code § 41-5-206

34, 35

N.C. Gen. Stat. § 7B-2200

34

N.D. Cent. Code § 27-20-34

34

N.J. Stat. § 2A:4A-26

34

N.M. Stat. § 32A-1-8

34, 35, 36

N.Y. Crim. Proc. Law. § 1.20

34, 35

N.Y. Penal Law § 30.00

34, 35

Nev. Rev. Stat. § 62B.330

34, 35

Ohio Rev. Code § 2152.10

34

Okla. Stat. tit. 10A, § 2-5-204

34, 35

Or. Rev. Stat. § 137.707

34, 36

Pa. Cons. Stat. § 6302

34

Pa. Cons. Stat. § 6321

36

S.C. Code § 63-3-510

36

S.C. Code § 63-19-20

35

S.D. Codified Laws § 26-11-3.1

35

Utah Code § 78A-6-701
Va. Code § 16.1-269.1

35, 36
35

xi
Vt. Stat. tit. 33 § 5201
W. Va. Code § 49-4-710

35
35, 36

W. Va. Code § 49-4-710(j)

37

Wash. Rev. Code § 13.40.110

36

Wash. Rev. Code § 13.0430

35

Wis. Stat. § 938.183

35, 36

Wyo. Stat. § 14-6-203

35, 36

Wyo. Stat. § 14-6-237

37

Other Authorities
David L. Myers, The Recidivism of Violent
Youth in Juvenile and Adult Court: A
Consideration of Selection Bias

37

Ian M. Kysel, Banishing Solitary:
Litigating an End to the Solitary
Confinement of Children in Jails and
Prisons, 40 N.Y.U. REV. L. & SOC.
CHANGE 675, 688-90 (2016)

27

Justice System, CAMPAIGN FOR YOUTH
JUSTICE (April 2012),
http://www.campaignforyouthjustice.org/
images/presskit/KeyYouthCrimeFacts.p
df

27

xii
Robert Hahn, et al., Effects on Violence of
Laws and Policies Facilitating the
Transfer of Youth from the Juvenile to
the Adult Justice System: A Report on
Recommendations of the Task Force on
Community Preventive Services

38

1
IN THE

*nine= court of tbe 6 niteb *tates'
HUNTER FUSSELL, an individual,
Petitioner,
v.
STATE OF LOUISIANA,
Respondent.
On Petition For A Writ Of Certiorari
To The Louisiana Supreme Court
PETITION FOR A WRIT OF CERTIORARI
Hunter Fussell respectfully petitions for a writ
of certiorari to review the judgment of the Louisiana Supreme Court in this case.
OPINIONS BELOW
The opinion of the Supreme Court of Louisiana,
in a 4-3 decision, reversing the district court opinion
and finding the automatic transfer provision of Louisiana Children's Code Article 305(A) constitutional
is included at App. la. The opinion of the Louisiana
Twenty-Second Judicial District Court, Parish of St.
Tammany, declaring Article 305(A) unconstitutional, is not reported and is included at App. 31a.
STATEMENT OF JURISDICTION
The Louisiana Supreme Court entered its judgment in this case on December 11, 2019. On March
3, 2020, Justice Alito extended the time within which

2
to file a petition for a writ of certiorari to and including April 9, 2020. Subsequently, on March 19, 2020,
due to public health concerns relating to COVID-19,
the Court extended the deadline for all petitions due
on or after that date to 150 days from the date of the
lower court judgment. The jurisdiction of this Court
is invoked under 28 U.S.C. § 1257(a).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Due Process Clause of the Fourteenth
Amendment provides: "No state shall. . . deprive any
person of life, liberty, or property, without due process of law[.]" U.S. Const. amend. XIV, § 1.
Louisiana Children's Code, Article 305 provides
that:
A.(1) When a child is fifteen years of age or
older at the time of the commission of first degree murder, second degree murder, aggravated or first degree rape, or aggravated kidnapping, he is subject to the exclusive jurisdiction of the juvenile court until either:
(a) An indictment charging one of these offenses
is returned.
(b) The juvenile court holds a continued custody
hearing pursuant to Articles 819 and 820 and
finds probable cause that he committed one of
these offenses, whichever occurs first. During
this hearing, when the child is charged with aggravated or first degree rape, the court shall inform him that if convicted he shall register as a

3
sex offender for life, pursuant to Chapter 3-B of
Title 15 of the Louisiana Revised Statutes of
1950.
(2) Thereafter, the child is subject to the exclusive jurisdiction of the appropriate court exercising criminal jurisdiction for all subsequent
procedures, including the review of bail applications, and the court exercising criminal jurisdiction may order that the child be transferred to the appropriate adult facility for detention prior to his trial as an adult.
* * *

D. The court exercising criminal jurisdiction
shall retain jurisdiction over the child's case,
even though he pleads guilty to or is convicted
of a lesser included offense. A plea to or conviction of a lesser included offense shall not revest
jurisdiction in the court exercising juvenile jurisdiction over such a child.
La. Child. Code art. 305(A)(1), (D).
INTRODUCTION
More than fifty years ago, this Court explained
the due process requirements for the transfer of a
child to criminal court: "There is no place in our system of law for reaching a result of such tremendous
consequence without ceremony—without hearing,
without effective assistance of counsel, without a
statement of reasons." Kent, 383 U.S. at 554. Since
then, however, courts have struggled to interpret
Kent's holding, and there is now broad disagreement

4
regarding what due process protections apply to protect a child from an arbitrary placement in or transfer to adult criminal court. This confusion results in
wildly different levels of protection for children, depending on the jurisdiction in which they are detained.
This case presents an ideal opportunity for the
Court to resolve this issue. In a 4-3 decision below,
the Louisiana Supreme Court upheld a statute that
permits the state to remove children as young as 15
years old from a juvenile court's exclusive jurisdiction and to place them in a court of general criminal
jurisdiction to be treated as an adult. The majority
below held that the state can do this without providing the child with due process because a child faced
with such a situation has no liberty interest at stake
that warrants protection. That holding is wrong for
at least two reasons.
First, the decision below ignores the liberty interest granted to children by the Due Process Clause itself. Some courts historically have refused to recognize such an interest because they found that children are just as culpable for their delinquent actions
as adults were for their criminal actions. See, e.g., In
re Boot, 925 P.2d 964, 973-74 (Wash. 1996) (rejecting
argument that children are less culpable for "crimes
not calling for the death penalty"). As a result, there
was no constitutional requirement to treat children
differently. But science and this Court have now refuted that assumption: "[D]evelopments in psychology and brain science continue to show fundamental
differences between juvenile and adult minds." Graham, 560 U.S. 68. As compared to adults, children
have "diminished culpability and greater prospects

5
for reform[.]" Miller v. Alabama, 567 U.S. 460, 471
(2012). As the dissent below found, because children
are categorically different from adults—in their culpability and in their ability to reform—a state should
not be permitted to remove that distinction without
adhering to due process.
Second, when a state places a child within the jurisdiction of its juvenile courts, it grants that child a
liberty interest to remain there. While in juvenile
court, a child benefits from a proceeding that accounts for his unique nature and that focuses on rehabilitation, treatment, and confidentiality. When a
child is transferred away from that court, those protections are taken away by the state. Petitioner, for
example, while he was under the juvenile court's jurisdiction, was statutorily protected from any sentence that would extend beyond his 21st birthday.
La. Child. Code art. 897.1(B)). After his transfer,
however, he faces an adversarial criminal proceeding, and, if convicted, he will be subject to a mandatory life sentence with a potential for parole after 25
years. La. Rev. Stat. § 15:574.4. It is therefore not
surprising that this Court has noted that such a
transfer is "a matter of great significance to the juvenile[.]" Breed v. Jones, 421 U.S. 519, 535 (1975). As
a result, "[t]here is no place in our system of law for
reaching a result of such tremendous consequence
without ceremony" and without due process. Kent,
383 U.S. at 554.
The decision below illustrates the need for this
Court's intervention. Because Petitioner resides in
and was detained in Louisiana, he was transferred
from juvenile proceedings to criminal court without
due process. It may be that a state has a sufficient

6
interest in prosecuting and sentencing children as
adults in certain instances, but the state should be
required to adhere to due process before doing so.
Louisiana did not do that here. And because other
children throughout the country similarly are having
their rights taken away without due process, this
Court's review is warranted.
STATEMENT
1. Petitioner is a 15-year-old boy that was detained for an alleged rape on December 13, 2018.
App. 31a. Because of his age, Petitioner was detained
at a juvenile detention center and was, as required
by Louisiana statute, placed in the "exclusive jurisdiction" of Louisiana's juvenile courts. App. 31a-32a;
La. Child. Code art 305(A).
More than two months later, on February 27,
2019, a grand jury returned an indictment charging
Petitioner with first-degree rape. App. 32a. Due to
the indicted offense and Petitioner's age, Article 305
of Louisiana's Children's Code mandated Petitioner's
automatic transfer from juvenile court to "the exclusive jurisdiction of the appropriate court exercising
criminal jurisdiction for all subsequent procedures[.]" La. Child. Code art. 305(A)(1)(a), (A)(2).
More specifically, Petitioner was transferred to Louisiana's 22nd Judicial District Court. App. 32a. If a
child like Petitioner is transferred under Article
305(A), he also faces the immediate risk of being
transferred to an adult jail "facility for detention
prior to his trial as an adult." La. Child. Code art.
305(A)(2).

7
Petitioner's transfer to be tried as an adult is irrevocable under Louisiana law: "[a] plea to or conviction of a lesser included offense shall not revest jurisdiction in the court exercising juvenile jurisdiction
over such a child." La. Child. Code art. 305(D). Moreover, as an adult offender, Petitioner faces a mandatory sentence of life in prison with the potential for
parole after 25 years. La. Rev. Stat. § 15:574.4. While
he is in an adult prison, his educational resources
and requirements will fall short of those provided in
youth facilities. Compare La. Rev. Stat. § 17:10.9,
with La. Rev. Stat. § 15:828(A)(1). His confidentiality
protections are weakened, and any subsequent expungement becomes more difficult than if he was
tried in a juvenile proceeding. Compare La. Child.
Code arts. 917-22, with La. Code Crim. Proc. art. 977.
2. Petitioner filed a motion to quash his transfer,
contending that Louisiana's automatic transfer provision, Article 305(A), violates both the United
States and Louisiana Constitutions. App. 31a. On
April 24, 2019, the District Court granted Petitioner's motion to quash because it found that Article
305(A) "violates the Due Process Clauses of the
United States and Louisiana State Constitutions."
App. 33a. The court explained that Louisiana remained free to transfer a child to adult court, but
that "prior to transfer, a child must receive a hearing
. . . for a determination of whether that particular
child can be rehabilitated with the facilities available in the juvenile system, prior to transfer." App.
33a.
The district court cited this Court's holdings in
Roper, Graham, and Miller in concluding that
"[j]uveniles have a right not to be automatically

8
treated as adults," App. 37a, but "[m]andatory transfer statutes . . . require certain accused juvenile offenders to be treated as adults based solely on their
alleged crimes, without any opportunity for a judicial
determination that the particular juvenile at issue
should, in fact, be treated as an adult." App. 37a. Addressing Petitioner's age, the court concluded:
It does not follow, and no research supports,
that a child three days into his 15th birthday
is dissimilarly situated as a child that is four
days younger. It may very well be that an individual is beyond rehabilitation at 15 years
and three days. At a bare minimum the state
and defense should have a forum to present
evidence of, or contradicting that proposition.
App. 38a.
3. In a 4-3 decision, the Louisiana Supreme Court
reversed the district court's decision. There was no
dispute that Petitioner did not receive due process
prior to his transfer. Instead, relying heavily on its
precedent from 1983, the majority found that Petitioner was not entitled to due process before his
transfer because children in Louisiana do not possess
a liberty interest under the United States or Louisiana Constitutions. App. 9a-10a. The court distinguished this Court's decisions in Roper, Graham, and
Miller as irrelevant to Petitioner's arguments because those holdings "are based on the Eighth
Amendment's prohibition against cruel and unusual
punishments[.]" App. 9a. The majority also held that
"the Louisiana legislature has not provided certain
juvenile offenders with a statutorily protected liberty
interest in juvenile adjudication[.]" App. 10a.

9
Three justices dissented, finding a liberty interest
in being adjudicated as a child created by state statute and supported implicitly in the Constitution and
this Court's prior holdings. App. 16a.
The dissent relied first on the "comprehensive juvenile system . . . established by the Louisiana Legislature to protect and rehabilitate juvenile offenders" designed with a "focus on rehabilitation and individual treatment rather than retribution." App.
17a-18a. More specifically, the dissent observed,
"[j]uveniles who are forced into the adult criminal
justice system lose a plethora of benefits that come
with adjudicating the alleged crime in the juvenile
court." App. 27a.
The dissent concluded that Kent and In re Gault,
387 U.S. 1 (1967), "together make it clear that juvenile court proceedings affecting a juvenile's substantial rights must measure up to the essentials of due
process and fair treatment . . . . Procedural due process mandates that juvenile offenders are entitled to
a meaningful hearing before they can be removed
from the jurisdiction of the juvenile court and subjected to adult court jurisdiction pursuant to Article
305(A)." App. 20a.
The dissent also recognized that a required
transfer to adult jurisdictions exposed juveniles to
more severe punishment and longer sentences without recognizing the "host of characteristics and circumstances attendant to the juvenile's age" recognized by this Court in Roper, Graham, and Miller.
App. 26a. The dissent found that Louisiana Article
305(A) violates the United States and Louisiana

10
Constitutions because it allows for a child's automatic transfer to criminal court without due process:
[It] is more significant than a simple
change of venue. Juveniles who are
forced into the adult criminal justice
system lose a plethora of benefits that
come with adjudicating the alleged
crime in the juvenile justice system, and
they are saddled with an adult criminal
record. . . . Our understanding of juvenile culpability has changed dramatically over the last twenty years, shifting
the way we treat accused juvenile offenders . . . . [The transfer decision]
should be made on an individual basis.
A mandated automatic transfer provision, based on age and offense alone, is
constitutionally flawed.
App. 27a.
REASONS FOR GRANTING THE PETITION
I. THE COURT SHOULD RESOLVE THE
CONFUSION REGARDING THE DUE PROCESS RIGHTS GRANTED TO CHILDREN
CHARGED WITH CRIMINAL CONDUCT.
The Fourteenth Amendment's Due Process
Clause protects liberty interests that "may arise
from the Constitution itself, by reason of guarantees
implicit in the word `liberty,' or [that] may arise from
an expectation or interest created by state laws or
policies[.]" Wilkinson v. Austin, 545 U.S. 209, 221
(2005) (internal citations omitted). Accordingly, this

11
Court has held that a child can possess a protected
liberty interest to be tried in juvenile court and cannot be deprived of that interest without a hearing.
Kent, 383 U.S. at 554. But the question of when a
child possesses such an interest remains disputed by
courts.
In Kent, a 16-year-old boy in the District of Columbia was arrested and, as required by statute,
placed within the "exclusive jurisdiction" of the juvenile court for the District. Id. at 543. Subsequently,
the juvenile court "waived" its jurisdiction over the
child and remitted him to the criminal jurisdiction of
the U.S. District Court for the District of Columbia.
Because the juvenile court transferred the child
without a hearing or record of findings, however, this
Court held that the transfer was unconstitutional.
Id. at 554. "[T]here is no place in our system of law
for reaching a result of such tremendous consequence without ceremony—without hearing, without
effective assistance of counsel, without a statement
of reasons." Id.
Despite the Court's plain language, courts have
struggled to apply Kent's holding. See Woodard v.
Wainwright, 556 F.2d 781, 784 (5th Cir. 1977) ("[I]t
remains unclear whether the hearing required in
Kent was constitutionally mandated[.]"). Some have
interpreted it broadly to find that the Due Process
Clause grants to children a liberty interest in juvenile adjudication such that the state must give each
child a hearing before a transfer to criminal jurisdiction. See, e.g., Flakes v. People, 153 P.3d 427, 436-37
(Colo. 2007), as modified on denial of reh'g (Mar. 19,
2007) (en banc) (holding state statute, "amended in
response to Kent," requires explanation of reasons

12
before juvenile may be subjected to adult sentencing); Bouge v. Reed, 459 P.2d 869, 870 (Or. 1969)
("We conclude that the intent of the United States
Supreme Court, as expressed in [Kent and In re
Gault] is that the due process clause of the Constitution of the United States requires states to accord a
hearing before a juvenile can be remanded to the
adult criminal process.").
In Flakes, a juvenile was charged with first degree murder and thus automatically tried in adult
court under Colorado's juvenile transfer law. 153
P.3d at 430-31. The first-degree murder charge was
rejected, but the juvenile was ultimately convicted of
lesser charges. Id. The juvenile was still sentenced
as an adult, even though the adult court lacked jurisdiction over the lesser charges. Id. Upon review,
the Colorado Supreme Court rejected the sentence
because it failed to comply with Kent. Id. at 436-37.
The court found that Kent requires courts to give reasons for why a juvenile is subject to adult treatment.
Id.
Other courts have declined to find a constitutionally provided interest and have instead held that
Kent's holding applies only if the state in question
grants a liberty interest in juvenile court. See, e.g.,
State v. Watkins, 423 P.3d 830, 833-34 (Wash. 2018)
("There is no constitutional right to be tried in juvenile court and, hence, no constitutional right to a
Kent hearing before being tried in adult court.").
Even among these holdings, courts disagree over
what is needed for a state to confer such a right.
Some have held that a protected interest exists only
if a state statute allows for a discretionary transfer
to a juvenile court, as was the case in Kent. See, e.g.,

13
Watkins, 423 P.3d at 834 (citation omitted) ("[T]he
right [to a Kent hearing] attaches only if a court is
given statutory discretion to assign juvenile or adult
court jurisdiction."); People v. Patterson, 25 N.E.3d
526, 548-49, 553 (Ill. 2014) (upholding transfer statute that required "all 15- and 16-year-olds charged
with the listed offenses to be transferred").
Other courts have found that the relevant question is one of jurisdiction; if the state statute grants
jurisdiction to the juvenile court, like in Kent, then
the juvenile possesses an interest to remain in that
court. See, e.g., Smith v. Sullivan, 1 F. Supp. 2d 206,
222-23 (W.D.N.Y. 1998) ("The family court did not
waive jurisdiction; it had none to begin with. . . . The
due process concerns that were implicated in Kent,
then, were not present here."); C.D. v. State, 458 P.3d
81, 86 (Alaska 2020) ("When a statute vests the right
to have a minor's case heard in the juvenile justice
system, that right constitutes a liberty interest that
cannot be denied without due process."); State v.
Grigsby, 818 N.W.2d 511, 517 (Minn. 2012) (citation
omitted) ("If the Legislature provides a juvenile with
a statutory right to `exclusive' juvenile court jurisdiction, however, the juvenile does have a protectable
liberty interest in a juvenile adjudication, which attaches when the juvenile court attains jurisdiction.");
Gingerich v. State, 979 N.E.2d 694, 710-11 (Ind. Ct.
App. 2012) (citation omitted) ("Thus, at the outset of
the filing of the delinquency petition Gingerich enjoyed the panoply of protections associated with being tried in the juvenile system, and he was entitled
to a full investigation and hearing prior to the court
ordering waiver. Accordingly, Gingerich's liberty
was at stake when the State moved to waive Gingerich into adult court."); see also United States v.

14
Bland, 472 F.2d 1329, 1336-37 (D.C. Cir. 1972) (stating due process rights implicated in Kent were
caused by "initial juvenile court jurisdiction"). In
these cases, once a child is placed in the jurisdiction
of the juvenile court, the child obtains a liberty interest to remain there.
The interests and corresponding risk that Petitioner faces under the Louisiana statute at issue
here are more striking and severe than in other cases
in which the statutes were upheld. For example, the
court in Watkins rejected a constitutional challenge
to Washington's transfer statute because adult criminal courts would have the discretion to ignore mandatory minimum sentences if the child was convicted. 423 P.3d at 833-34.
Petitioner is entitled to no such protection in Louisiana's district court. See, e.g., La. Child. Code arts.
102, 404, 897(d), 901, 918; La. Rev. Stat. §§ 17:10.9,
17:3911. Moreover, even if he is found not guilty, Petitioner immediately faces a longer period of detention—Louisiana's district courts lack the expedited
procedures required in Louisiana's juvenile courts.
More specifically, a juvenile detained for a charge involving violence is required to be given an adjudication hearing within 60 days of the appearance to answer the petition, while the same person tried in an
adult criminal court could be forced to wait up to two
years to be tried on a felony charge and three years
for a capital offense. Compare La. Child. Code art.
877(A)), with La. Code Crim. Proc. art. 578. Nor can
Petitioner's transfer be reversed—Louisiana does
not allow for a "reverse transfer" back to juvenile
court, even if the child's more serious charges are
withdrawn or if they result in an acquittal.

15
II. THIS CASE PRESENTS AN IDEAL OPPORTUNITY TO RESOLVE THE ISSUE OF DUE
PROCESS RIGHTS FOR CHILDREN.
Louisiana's transfer statute is particularly devastating in its treatment of detained children. Louisiana's Children's Code guarantees that every detained child will be placed within "the exclusive jurisdiction of the juvenile court." La. Child. Code art.
305(A)(1). That court has express goals to further the
care and rehabilitation of children and to provide an
array of protections in its approach to sentencing, education, and other opportunities. La. Child. Code art.
801 (declaring purpose of Louisiana Children's Code
as "ensur[ing] that [each child] shall receive, preferably in his own home, the care, guidance, and control
that will be conducive to his welfare[.]"). If the child
is at least 15 years old and is subsequently indicted
for a specified offense, or upon a finding of probable
cause for that offense, the child is automatically removed without a due process hearing from juvenile
court and transferred to the criminal jurisdiction of
Louisiana's district courts to be tried as an adult. See
La. Child. Code art. 305(A). One immediate implication of this transfer is that the child may be pulled
from a youth detention center and placed in jail with
adults. See La. Child. Code art. 305(A)(2).
Petitioner was first detained and placed within a
youth detention center because he was only a few
days past his 15th birthday at the time. He remained
under the "exclusive jurisdiction" of Louisiana's juvenile courts for nearly two months. But after prosecutors obtained an indictment from a grand jury for
an offense that mandated an automatic transfer under Article 305(A), Petitioner immediately was

16
moved to the jurisdiction of the 22nd Judicial District without an individualized hearing. That transfer also meant that Petitioner will be tried as an
adult and, if convicted, faces a "mandatory penalty"
of "life imprisonment" with his first opportunity for
a parole hearing after 25 years. La. Rev. Stat. §
15:574.4.
Even though Louisiana's statutory scheme
placed Petitioner in the "exclusive jurisdiction" of juvenile court for months while he awaited his fate, the
Louisiana Supreme Court found that he never possessed a liberty interest to remain in that jurisdiction, despite its many protections. This decision was
wrong for two reasons. First, this Court should affirm what was implied in Kent—that children are
granted a liberty interest directly under the Due Process Clause and cannot be placed in adult criminal
jurisdiction without an individualized hearing. Second, at the very least, Louisiana's statute created a
liberty interest for Petitioner by guaranteeing that
he would first be placed in the "exclusive jurisdiction," and subject to the protections, of Louisiana's
juvenile courts.
A. The decision below ignored the liberty
interest created for children by the Due
Process Clause.
The Due Process Clause "specially protects those
fundamental rights and liberties which are, objectively, deeply rooted in this Nation's history and tradition, and implicit in the concept of ordered liberty,
such that neither liberty nor justice would exist if
they were sacrificed[.]" Washington v. Glucksberg,
521 U.S. 702, 720-21 (1997) (internal citations and

17
quotations omitted); see also Wilkinson, 545 U.S. at
221 ("A liberty interest may arise from the Constitution itself, by reason of guarantees implicit in the
word `liberty[.]"'). Such liberty interests include the
"right to freedom from bodily restraint" and to "personal security[.]" Youngberg v. Romeo, 457 U.S. 307,
315-16 (1982).
In Vitek v. Jones, this Court held that implicit in
the Due Process Clause is a liberty interest of convicted prisoners to not be transferred to a mental
hospital without appropriate procedures. 445 U.S.
480, 491-92 (1980). The Court noted that "the commitment to a mental hospital can engender adverse
social consequences to the individual . . . and that it
can have a very significant impact on the individual."
Id. at 492 (internal quotations and citation omitted).
"Also, `[a]mong the historic liberties' protected by the
Due Process Clause is the `right to be free from, and
to obtain judicial relief for, unjustified intrusions on
personal security."' Id. (quoting Ingraham v. Wright,
430 U.S. 651, 673 (1977)). The Court concluded "that
a convicted felon also is entitled to the benefit of procedures appropriate in the circumstances before he
is . . . transferred to a mental hospital" because such
a transfer "amount[s] to a `grievous loss.'" Id. at 488,
492-93.
In short, convicted adults are entitled to due process before they are transferred from a prison to a
mental hospital. But courts disagree over whether
similar protections exist for children facing a transfer to criminal court. This is despite the fact that the
due process concerns are even greater. Pretrial confinees, for example, have greater liberty interests
than convicted prisoners that are under a sentence

18
of confinement like in Vitek. See Rapier v. Harris,
172 F.3d 999, 1004-05 (7th Cir. 1999) ("[P]retrial confinees are not similarly situated [with convicted prisoners]; they are not under a sentence of confinement,
and therefore it cannot be said that they ought to expect whatever deprivation can be considered incident
to serving such a sentence.").
More fundamentally, however, this issue presents unique due process concerns because children
categorically are less culpable for their behavior than
adults. See, e.g., Roper v. Simmons, 543 U.S. 551,
569-70 (2005) (citation omitted) (holding due to a
child's neurological development, "juveniles have a
greater claim than adults to be forgiven for failing to
escape negative influences in their whole environment"). "A child's age is far `more than a chronological fact.' It is a fact that `generates commonsense
conclusions about behavior and perception.' J.D.B.
v. North Carolina, 564 U.S. 261, 272 (2011) (internal
citations omitted). "'Our history is replete with laws
and judicial recognition' that children cannot be
viewed simply as miniature adults." Id. at 274 (quoting Eddings v. Oklahoma, 455 U.S. 104, 115-16
(1982)). In short, "children are different[.]" Miller,
567 U.S. at 481. "[T]he normal 15-year-old is not prepared to assume the full responsibilities of an adult."
Thompson v. Oklahoma, 487 U.S. 815, 825 (1988).
A decade of holdings from this Court have made
this point clear. See, e.g., Roper, 543 U.S. at 553 ("[I]t
is less supportable to conclude a heinous crime committed by a juvenile is evidence of irretrievably depraved character."). Children, as compared to adults,
are less mature, more reckless and impulsive, more
susceptible to peer pressure, and possess character

19
that is less fixed. Id. at 569-70. "[D]evelopments in
psychology and brain science continue to show fundamental differences between juvenile and adult
minds. For example, parts of the brain involved in
behavior control continue to mature through late adolescence." Graham, 560 U.S. at 68. Accordingly,
children are more capable of rehabilitation as compared to adults, and even serious crimes committed
by children do not necessarily evidence "irretrievable
depravity," making children less deserving of some
sentences commonly imposed on adults. Roper, 543
U.S. at 553.
The Louisiana Supreme Court cast this Court's
decisions aside by noting they "are based on the
Eighth Amendment's prohibition against cruel and
unusual punishments[.]" App. 9a. But a child's decreased culpability and unique characteristics are
constitutionally relevant to a criminal proceeding
well before sentencing. Indeed, the differences of a
child and adult come into play at the earliest stages
of the criminal justice process. See, e.g., J.D.B., 564
U.S. at 277 (holding distinction of child's age is "a
reality that courts cannot simply ignore" for Miranda analysis). And this Court has explained "the
long history of our law, recognizing that there are differences which must be accommodated in determining the rights and duties of children as compared
with those of adults." Thompson, 487 U.S. at 823
(emphasis in original).
Because children are categorically less culpable,
removing that distinction and treating a child like an
adult for a criminal prosecution causes a "grievous
loss" that should be protected by due process. Beyond
this, "the features that distinguish juveniles from

20
adults also put them at a significant disadvantage in
criminal proceedings." Graham, 560 U.S. at 78. A
child's defense will more likely be impaired by
"[d]ifficulty in weighing long-term consequences; a
corresponding impulsiveness; and reluctance to trust
defense counsel, seen as part of the adult world a
rebellious youth rejects[.]" Id.
The harms do not end there. Transfer to Louisiana's criminal jurisdiction also exposes a child to the
risk of imminent placement in an adult jail. When
placed in an adult jail, children are much more likely
to be subject to sexual and other physical abuse.
They also face substantial risks to their safety.
Children in adult jails are five times more likely to be
sexually abused—a risk so severe that Congress enacted the Prison Rape Elimination Act. 34 U.S.C. §
30301 (formerly cited as 42 U.S.C. § 15601) (finding
that "[j]uveniles are 5 times more likely to be sexually
assaulted in adult rather than juvenile facilities—often within the first 48 hours of incarceration"). Children often are also placed in solitary confinement,
which is intended as a safety measure that comes
with devastating consequences to mental health.'
Moreover, children in adult jails are a staggering 36

1 See Ian M. Kysel, Banishing Solitary: Litigating an End to the
Solitary Confinement of Children in Jails and Prisons, 40
N.Y.U. REV. L. & SOC. CHANGE 675, 688-90 (2016) (summarizing broad consensus regarding damaging impact of juvenile solitary confinement).

21
times more likely than adult inmates to commit suicide.2
In other words, as the dissent below held, placing
a child in adult criminal court is "more significant
than a simple change in venue," App. 27a—it is a
punishment. As a result, the Due Process Clause entitles a child to procedural protections before a state
can impose that punishment. The holding below
ignored Petitioner's rights and allowed his transfer
to Louisiana's criminal jurisdiction without any
opportunity to be heard. It should therefore be
reversed.
B. The decision below ignored the liberty
interest created by the Louisiana Children's Code.
The decision below also was incorrect because it
ignored the liberty interest that is created by the
Louisiana Children's Code. By first placing all children, including Petitioner, within the exclusive jurisdiction and protections of the juvenile court, Louisiana created a protected liberty interest for a child to
remain in that court.
"[S]tate statutes may create liberty interests that
are entitled to the procedural protections of the Due
Process Clause of the Fourteenth Amendment." Vitek, 445 U.S. at 488. In the context of convicted prisoners, for example, this Court has recognized and

2 See Key Facts: Youth in the Justice System, CAMPAIGN FOR
YOUTH JUSTICE (April 2012), http://www.campaignforyouthjustice.org/images/presskit/KeyYouthCrimeFacts.pdf.

22
protected interests in the revocation of parole, Morrissey v. Brewer, 408 U.S. 471 (1972), and the revocation of probation, Gagnon v. Scarpelli, 411 U.S.
778 (1973). The test for a state-created liberty interest does not turn on whether it is a "right or a "privilege," but "on the extent to which an individual will
be condemned to suffer grievous loss." Morrissey, 408
U.S. at 481.
In Morrissey, the Court considered whether a
state created a protected liberty interest for prisoners by affording them parole, even though it could be
revoked at any time. 408 U.S. at 472-73. Despite the
fact that "the liberty of a parolee [is] indeterminate,
. . . its termination inflicts a `grievous loss' on the parolee[.]" Id. at 482. The Court also recognized societal
interests in the liberty at stake, including in the parolee's "normal and useful life within the law" and
"in treating the parolee with basic fairness" by promoting rehabilitation. Id. at 484. "By whatever
name, the liberty is valuable and must be seen as
within the protection of the Fourteenth Amendment.
Its termination calls for some orderly process, however informal." Id. at 482.
States may similarly grant a liberty interest for a
child to remain in juvenile court. As the Court noted
in Kent, it would be "inconceivable" and "extraordinary" that a child would have fewer liberty interests
than those possessed by adults, in light of "society's
special concern for children[.]" 383 U.S. at 554. The
question then is when does a child's "liberty become[
] valuable" such that losing it would cause the holder
a "grievous loss." See Morrissey, 408 U.S. at 482.

23
Louisiana's Children's Code Article 305(A) meets
this standard by placing each detained child within
the "exclusive jurisdiction" of the juvenile court. A
critical fact in Kent was that the juvenile court first
possessed jurisdiction over the child before the transfer in question and that jurisdiction afforded certain
privileges:
The Juvenile Court is vested with `original and
exclusive jurisdiction' of the child. This jurisdiction confers special rights and immunities.
He is, as specified by the statute, shielded
from publicity. He may be confined, but with
rare exceptions he may not be jailed along
with adults. He may be detained, but only until he is 21 years of age.
383 U.S. at 556.
Just as in Kent, Louisiana's statute gave Petitioner special rights and immunities by placing him
first in the "exclusive jurisdiction" of the juvenile
court. App. 17a. As noted by the dissent below, Louisiana's Constitution allows the state legislature to
decide whether the state's "special juvenile procedures shall not apply to juveniles arrested for having
committed" certain offenses. App. 16a-17a. But that
is not what the legislature did. Instead, it created a
process where Petitioner was first placed in the "exclusive jurisdiction" of Louisiana's juvenile courts.
This distinction is critical because the statutory
scheme gave Petitioner unique statutory protections
intended to further the statute's goals of rehabilitation. Indeed, Louisiana courts have recognized that

24
the statutory mandate to rehabilitate youth constitutionally requires that children within the jurisdiction of a juvenile court must be given certain educational programming and support, and mental health
services, among other protections. State ex rel. S.D.,
832 So. 2d 415, 434-35 (La. App. 4 Cir. 2002). A
transfer that removes those benefits must adhere to
the requirements of due process.
This Court has recognized the significance and
immediate effects of transferring a child to be tried
as an adult. Breed, 421 U.S. at 535 (describing
transfer as "a matter of great significance"); Kent,
383 U.S. at 556 ("critically important action"). In
juvenile court, Petitioner faced a proceeding that
would focus on his needs and the needs of "society
rather than adjudicating criminal conduct." Kent,
383 U.S. at 554. If found deliquent in this proceeding,
any sentence would be statutorily limited to his 21st
birthday. La. Child. Code art. 897.1(B).
The transfer, however, changed that and
Petitioner now must defend himself in a criminal
prosecution where the state's focus is to punish him
as an adult offender. Compare La. Child. Code. arts.
102, 901, with La. Rev. Stat. § 15:906. In this proceeding, he faces a mandatory sentence of life in
prison with the potential for parole after 25 years for
the exact same crime. La. Rev. Stat. § 15:574.4. Importantly, after the transfer, Petitioner can have no
hope that it will later be undone. Even if he is acquitted of the triggering offense or if that charge is dismissed, Article 305 requires that he remain in criminal court for any other charges that otherwise would
have been adjudicated by the juvenile court. La.
Child. Code art. 305(D).

25
Numerous courts have recognized that a liberty
interest is created once the child falls within a juvenile court's jurisdiction and therefore can only reach
criminal jurisdiction through a transfer. See, e.g.,
Smith, 1 F. Supp. 2d at 222-23 ("The family court did
not waive jurisdiction; it had none to begin with. . . .
The due process concerns that were implicated in
Kent, then, were not present here."); Grigsby, 818
N.W.2d at 517 ("Absent a statutory right to `exclusive' juvenile court jurisdiction, a child does not have
any recognized protectable liberty interest in a juvenile adjudication."). In Grigsby, for example, the
Minnesota Supreme Court explained that "[i]f the
Legislature provides a juvenile with a statutory right
to `exclusive' juvenile court jurisdiction, . . . the juvenile does have a protectible liberty interest in a juvenile adjudication, which attaches when the juvenile
court attains jurisdiction." 818 N.W.2d at 517; see
also Gingerich, 979 N.E.2d at 711 ("Thus, at the outset of the filing of the delinquency petition Gingerich
enjoyed the panoply of protections associated with
being tried in the juvenile system, and he was entitled to a full investigation and hearing prior to the
court ordering waiver. Accordingly, Gingerich's liberty was at stake when the State moved to waive
Gingerich into adult court.").
The decision below illustrates the split among
courts and the reluctance among some to recognize a
liberty interest even in the statutory protections provided by juvenile court jurisdictions. This Court
should make clear that all children obtain a liberty
interest once they are placed within a juvenile court's
jurisdiction and provided statutory protections. Although the State can remove that interest and transfer the child to criminal jurisdiction, the State must

26
comply with due process requirements in doing so.
Because the decision below ignored the interest that
Petitioner possessed to remain in juvenile court, that
decision was wrong.
III. A CHILD'S DUE PROCESS RIGHT IS AN
IMPORTANT ISSUE.
A. Several jurisdictions allow the automatic
transfer of children to criminal jurisdiction, often from a juvenile court's jurisdiction.
Clarifying the liberty interests of detained children is a critical and unresolved constitutional issue.
Forty-two states allow for children to be automatically placed in adult criminal jurisdiction without any
form of process or individualized hearing.3 These pro-

3 Ala. Code § 12-15-204; Alaska Stat. § 47.12.100; Ariz. Rev. Stat.
§ 13-501(B); Ark. Code § 9-27-318; Cal. Welf. & Inst. Code §§ 602,
707; Colo. Rev. Stat. § 19-2-517; Conn. Gen. Stat. § 46b-127; Del.
Code tit. 11, § 1447A; D.C. Code § 16-2301(3); Fla. Stat. §
985.557; Ga. Code § 15-11-560; Idaho Code § 20-509; 705 Ill.
Comp. Stat. 405/5-130; Ind. Code § 31-30-1-4; Iowa Code § 232.8;
La. Child. Code art. 305; Md. Code, Cts. & Jud. Proc. § 3-8A-03;
Mass. Gen. Laws ch. 119, § 74; Mich. Comp. Laws §§ 712A.2,
600.606; Minn. Stat. §§ 260B.007, 260B.101; Miss. Code § 43-21151; Mont. Code § 41-5-206; Nev. Rev. Stat. § 62B.330; N.J. Stat.
§ 2A:4A-26; N.M. Stat. §§ 32A-1-8, 32A-2-3; N.Y. Penal Law §§
30.00, 70.05; N.Y. Crim. Proc. Law. §§ 1.20, 180.75; N.C. Gen.
Stat. § 7B-2200; N.D. Cent. Code § 27-20-34; Ohio Rev. Code §§
2152.10, 2152.12; Okla. Stat. tit. 10A, §§ 2-5-204 — 2-5-206; Or.
Rev. Stat. § 137.707; 42 Pa. Cons. Stat. §§ 6302, 6355; R.I. Gen.
Laws Ann. § 14-1-3; S.C. Code § 63-19-20; S.D. Codified Laws §
26-11-3.1; Utah Code § 78A-6-701; Va. Code § 16.1-269.1(D); Vt.

27
cedures violate basic principles of due process for children in each of these states, and those violations will
continue unless this Court affirmatively recognizes
the rights possessed by those children.
Among those forty-two states, thirty (including
Louisiana) have created an independent liberty interest by placing detained children within the jurisdiction of the state's juvenile courts, but each allows children to be transferred to adult criminal court without
a due process hearing to consider a child's age or potential for rehabilitation.4 Recognizing that statutory
schemes like this cannot withstand constitutional
scrutiny is critical to protecting the due process rights
of children in each of these states.
Even among these states, Louisiana is one of the
most harmful to children. It is one of only fourteen

Stat. tit. 33 § 5201; Wash. Rev. Code § 13.0430; W. Va. Code §
49-4-710; Wis. Stat. §§ 938.183, 938.12; Wyo. Stat. § 14-6-203.
4 Ala. Code § 12-15-204; Alaska Stat. § 47.12.100; Ariz. Rev. Stat.
§ 13-501(B); Ark. Code § 9-27-318; Cal. Welf. & Inst. Code §§ 602,
707; Colo. Rev. Stat. § 19-2-517; D.C. Code § 16-2301(3); Fla.
Stat. § 985.557; Ga. C. § 15-11-560; Idaho Code § 20-509; 705 Ill.
Comp. Stat. 405/5-130; Ind. Code § 31-30-1-4; Iowa Code § 232.8;
La. Child. Code art. 305; Md. Code, Cts. & Jud. Proc. § 3-8A-03;
Mass. Gen. Laws ch. 119, § 54; Mich. Comp. Laws §§ 712A.2,
600.606; Minn. Stat. §§ 260B.007, 260B.101; Miss. Code § 43-21151; Mont. Code § 41-5-206; Nev. Rev. Stat. § 62B.330; N.M.
Stat. §§ 32A-1-8, 32A-2-3; N.Y. Penal Law §§ 30.00, 70.05; N.Y.
Crim. Proc. Law. §§ 1.20, 180.75; Okla. Stat. tit. 10A, §§ 2-5-204
— 2-5-206; Or. Rev. Stat. § 137.707; 42 Pa. Cons. Stat. § 6321;
S.C. Code §§ 63-3-510; 63-19-20; Utah Code § 78A-6-701; Wis.
Stat. §§ 938.183, 938.12; Wyo. § 14-6-203.

28
states that allows a child to be placed into adult court
without due process, but then prohibits that child
from ever returning to juvenile court, even if the triggering charge is dropped (also known as a "reverse
waiver" provision).5 Conversely, other states, while
not expressly authorizing "reverse waivers," allow
children other forms of review in an attempt to mitigate the harms that stem from a transfer to adult
court. Alaska, for example, allows a child convicted of
a lesser offense in adult court to show their amenability to treatment as a delinquent. Alaska Stat. §
47.12.030. Other states grant appellate courts the
ability to review juvenile transfers6 or allow district
courts to return cases to juvenile court upon a finding
that the case is "more properly suited to disposition"
there.?
The variety of state approaches reflects the unsettled state of juvenile due process rights. Clarifying
this issue will ensure children—for whom society has
a special concern, Kent, 383 U.S. at 554—are appropriately protected in the criminal justice process.

5 Ala. Code § 12-15-204; Alaska Stat. § 47.12.100; D.C. Code §
16-2301(3); Fla. Stat. § 985.557; Idaho Code § 20-509; 705 Ill.
Comp. Stat. 405/5-130; Ind. Code § 31-30-1-4; La. Child. Code
art. 305; Mass. Gen. Laws ch. 119, § 74; Minn. Stat. §§ 260B.007,
260B.101; N.M. Stat. §§ 32A-1-8, 32A-2-3; Utah Code § 78A-6701; Wash. Rev. Code. Ann. § 13.40.110; W. Va. Code § 49-4-710.
6

W. Va. Code § 49-4-710(j).

7

Wyo. Stat. § 14-6-237.

29
B. Treating children as adults harms the
child and harms society.
Prosecuting children in adult criminal court also
does not serve society's interests. Studies show that
juvenile transfer laws are not effective means of reducing crime.8 Youth transferred from the juvenile to
the adult system, even if they are not convicted, are
34% more likely to recidivate—and recidivate with
more violent offenses—than their juvenile counterparts that remain in the juvenile system.9
The disadvantages continue even after release
from adult prisons. In Louisiana, an adult criminal
conviction can be used as a predicate offense to enhance sentences for future wrongdoing, but a juvenile
court adjudication—because it is not a conviction of a
crime—cannot. La. Child. Code art. 884; State v.
Brown, 879 So. 2d 1276, 1289-90 (La. 2004). For the
same reason, youth with criminal records (but not

See, e.g., David L. Myers, The Recidivism of Violent Youth in
Juvenile and Adult Court: A Consideration of Selection Bias,
Youth Violence and Juv. Just., Jan. 2003, at 9-11; Jeffrey Fagan, The Comparative Advantage of Juvenile Versus Criminal
Court Sanctions on Recidivism among Adolescent Felony Offenders, Law & Policy, Jan. 1996, at 77-114.
8

9 Robert Hahn, et al., Effects on Violence of Laws and Policies
Facilitating the Transfer of Youth from the Juvenile to the Adult
Justice System: A Report on Recommendations of the Task
Force on Community Preventive Services, Center for Disease
Control and Prevention, Morbidity and Mortality Wkly. Rep.,
Nov. 30, 2007, at 7-8; see also id. at 9 ("To the extent that transfer policies are implemented to reduce violent or other criminal
behavior, available evidence indicates that they do more harm
than good.").

30
those adjudicated delinquent in juvenile court) can be
denied employment opportunities due to their criminal histories, creating a substantial roadblock very
early in a person's life for future opportunities. See,
e.g., La. Rev. Stat. § 42:1701(B) (allowing state employers to consider criminal histories of prospective
employees in making hiring decisions). Additionally,
juvenile records are subject to enhanced confidentiality protections and have the potential for expungement, including for murder and rape adjudications.
La. Child. Code arts. 404, 918. These heightened protections give a young person, uniquely capable of
growth and change, a more meaningful chance to live
a productive life. Further, while juvenile detention
centers provide high school and college education, not
all adult facilities do. See La. Rev. Stat. § 15:828(A)(1)
(requiring prisons to establish education programming only when resources permit). Thus, by the time
a child is released from adult jail, he may be years
behind his peers academically and with significantly
more limited opportunities.
These consequences of a transfer from juvenile to
adult criminal court revolve around a central fact: age
matters. Article 305, however, contravenes the very
purpose of Louisiana's juvenile justice system and
this Court's jurisprudence by depriving children capable of rehabilitation of a hearing to determine if a
transfer to the adult system is appropriate. The consequences of a transfer are disproportionately grave
and dangerous, stopping a child's greater possibility
for reform dead in its tracks.

31
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
Shannon Christian
22nd JDC Public
Defender's Office
402 North Jefferson
Avenue
Covington, LA 70433
(985) 809-1498

Adam Pierson
Counsel of Record
Kenneth Schmetterer
Trumon Phillips
Virginia Weeks
Dante Alessandri
DLA Piper LLP (US)
1900 N. Pearl Street
Suite 2200
Dallas, Texas 75201
(214) 743-4512
adam.pierson@dlapiper.com
Counsel for Petitioner

MAY 8, 2020

APPENDIX

la
APPENDIX A
SUPREME COURT OF LOUISIANA
[Filed Dec. 11, 2019]
No. 2019-KA-01061
STATE OF LOUISIANA
versus
HUNTER FUSSELL
ON APPEAL FROM THE TWENTY-SECOND
JUDICIAL DISTRICT COURT, PARISH OF
ST. TAMMANY
PER CURIAM:*
Children's Code article 305(A), pertaining to divestiture of juvenile court jurisdiction and original criminal
court jurisdiction over children, provides:
A. (1) When a child is fifteen years of age
or older at the time of the commission of
first degree murder, second degree murder,
aggravated or first degree rape, or aggravated
kidnapping, he is subject to the exclusive
jurisdiction of the juvenile court until either:
Chief Judge Susan M. Chehardy of the Court of Appeal, Fifth
Circuit, heard this case as Justice pro tempore, sitting in the
vacant seat for District 1 of the Supreme Court. She is now
appearing as an ad hoc for Justice William J. Crain. Retired
Judge James Boddie Jr., appointed Justice ad hoc, sitting for
Justice Marcus R. Clark.

2a
(a) An indictment charging one of these
offenses is returned.
(b) The juvenile court holds a continued custody hearing pursuant to Articles 819 and 820
and finds probable cause that he committed
one of these offenses, whichever occurs first.
During this hearing, when the child is charged
with aggravated or first degree rape, the
court shall inform him that if convicted
he shall register as a sex offender for life,
pursuant to Chapter 3-B of Title 15 of the
Louisiana Revised Statutes of 1950.
(2) Thereafter, the child is subject to the
exclusive jurisdiction of the appropriate court
exercising criminal jurisdiction for all subsequent procedures, including the review of bail
applications, and the court exercising criminal
jurisdiction may order that the child be transferred to the appropriate adult facility for
detention prior to his trial as an adult.
Defendant Hunter Fussell was indicted for a first
degree rape of a victim under the age of thirteen,
La.R.S. 14:42(A)(4), that he was alleged to have
committed on or shortly after his fifteenth birthday. At
that point, pursuant to Article 305(A), defendant
became subject to the exclusive jurisdiction of the
Twenty-Second Judicial District Court exercising its
criminal jurisdiction.
Defendant filed motions contending that the automatic transfer provision of Article 305(A) violates
several constitutional provisions, both state and
federal, as well as evolving United States Supreme
Court jurisprudence recognizing the special characteristics of juveniles that can affect their capabilities and

3a
culpability. In response, the district court ultimately
ruled that this automatic transfer provision violates
due process and that a transfer hearing, comparable
to the one provided in Children's Code art. 862,1 is
1 Children's Code art. 862 provides:
A. In order for a motion to transfer a child to he
granted, the burden shall be upon the state to prove all
of the following:
(1) Probable cause exists that the child meets the
requirements of Article 857.
(2) By clear and convincing proof, there is no substantial opportunity for the child's rehabilitation through
facilities available to the court, based upon the following criteria:
(a) The age, maturity, both mental and physical, and
sophistication of the child.
(b) The nature and seriousness of the alleged offense
to the community and whether the protection of the
community requires transfer.
(c) The child's prior acts of delinquency, if any, and
their nature and seriousness.
(d) Past efforts at rehabilitation and treatment, if any,
and the child's response.
(e) Whether the child's behavior might be related to
physical or mental problems.
(f) Techniques, programs, personnel, and facilities
available to the juvenile court which might be competent to deal with the child's particular problems.
B. The court shall state for the record its reasons for
judgment.
C. (1) The court shall transmit the order rendered after
the hearing or a certified copy thereof, without delay,
to the clerk of court having jurisdiction of the offense.
(2) Any party may request the court to provide a
complete or partial transcript of the testimony of the
witnesses; however, neither the record of the hearing

4a
constitutionally required before a juvenile can be
transferred to a district court exercising criminal
jurisdiction. In reaching those conclusions, the district
court relied on United States Supreme Court jurisprudence holding that juveniles are constitutionally different
from adults for purposes of sentencing.2 The district
court also relied heavily on Kent v. United States, 383
U.S. 541, 86 S.Ct. 1045, 16 L.Ed.2d 84 (1966), for the
propositions that transfer from juvenile court imposes
a significant deprivation of liberty and therefore
warrants protection under the due process clause, and
that a transfer from juvenile court should not occur
unless the due process protections provided to juveniles are satisfied. A probable cause determination
based solely on the nature of the offense alleged and
evidence defendant committed the offense is inadequate to satisfy due process, the district court found,
without a judicial determination that the juvenile will
not benefit from the special protections and opportunities for rehabilitation offered by the juvenile court. The
district court also found that a juvenile who is subject
to the automatic transfer provision is denied the equal

nor the reasons for the transfer shall be admissible in
evidence in any subsequent criminal proceedings, except
for the purpose of impeachment of a witness.
2 See generally Roper v. Simmons, 543 U.S. 551, 125 S.Ct. 1183,
161 L.Ed.2d 1, 29 (2005) (holding the Eighth and Fourteenth
Amendments forbid imposition of the death penalty on offenders
who were under the age of 18 when their crimes were committed.);
Graham v. Florida, 560 U.S. 48, 130 S.Ct. 2011, 176 L.Ed.2d 825
(2010) (holding the Constitution prohibits the imposition of life
without parole sentences on juvenile offenders convicted of a nonhomicide offense); Miller v. Alabama, 567 U.S. 460, 132 S.Ct.
2455, 183 L.Ed.2d 407 (2012) (holding that mandatory life imprisonment without parole for juvenile homicide offenders violates Eighth
Amendment prohibition against cruel and unusual punishment).

5a
protection of law. Thus, the district court quashed the
transfer of defendant from the juvenile to district court.
Because the district court declared the automatic
transfer provision of Article 305(A) to be unconstitutional, that declaration is appealable to this court
pursuant to La. Const. Art. V, § 5(D). Before determining the correctness of the trial court's declaration,
this court must first decide whether the issue of
constitutionality was properly raised below. "[A]
constitutional challenge may not be considered by an
appellate court unless it was properly pleaded and
raised in the trial court below." State v. Hatton, 072377, p. 13 (La. 7/1/08), 985 So.2d 709, 718. In Hatton,
the court described the proper procedure for challenging the constitutionality of a statute, expressing the
challenger's burden as a three-step analysis. "First, a
party must raise the unconstitutionality in the trial
court; second, the unconstitutionality of a statute
must be specially pleaded; and third, the grounds
outlining the basis of unconstitutionality must be
particularized." Id., 072377, p. 14, 985 So.2d at 719.
In the present case, a review of the record shows
that defendant properly raised, pleaded, and particularized his challenge under the Due Process Clause,
and its state constitution counterpart, and the district
court's declaration of unconstitutionality on that
ground is properly before this court on appeal.
Defendant's equal protection challenge, however, was
not specially pleaded.3 Nonetheless, we will briefly
3 Defendant contended in his motion filed in the district court
(which is nearly identical to his motion filed earlier in the juvenile
court) that "Louisiana's Children's Code Art. 305 violates the Fourteenth Amendment Due Process Clause and the Eighth Amendment

6a
address equal protection for the sake of completeness
and expediency.
This court held that when a statute classifies persons
on the basis of any of the six enumerated grounds in
La. Const. Art. I § 3, including age, the statute is
unconstitutional unless the proponents are able to
prove that the legislative classification "substantially
furthers an appropriate state purpose." Manuel v.
State, 95-2189, p. 4 (La. 3/8/96), 692 So.2d 320, 323,
quoting Sibley v. Board of Supervisors of Louisiana
State University, 477 So.2d 1094, 1108 (La. 1985).
Defendant here contends that the automatic transfer
provision draws a suspect age-based distinction
between juveniles that not only fails to further an
appropriate state purpose but defeats one—i.e., the
rehabilitative purpose of having a separate juvenile
court system—because the transfer is automatic
without regard to whether the juvenile could benefit
from the rehabilitative opportunities afforded by a
juvenile court. However, in scrutinizing La.R.S.
13:1570(A)(5),4 which was a predecessor to Article
of the United States Constitution, Article I, Section 2, 16, 19, 20
and 22 of the Louisiana State Constitution, . . . and goes against
the spirit of United States Supreme Court Case law . . . ." Nowhere
in that filing does defendant mention the Equal Protection Clause
(or its state counterpart in La. Const. Art. I § 3). Defendant's first
mention of equal protection is during argument at the hearing on
his motion.
4 This statute, which pertained to the jurisdiction of the juvenile courts and became effective September 12, 1980, provided:

Except as otherwise provided herein, the [juvenile] court
shall have exclusive original jurisdiction in proceedings:
A. Concerning any child whose domicile is within the
parish or who is found within the parish:

7a
305(A), this court found that provision furthered the
state's interest in protecting the public from serious,
violent felonies. State v. Perque, 439 So.2d 1060, 1064
(La. 1983); see also State v. Leach, 425 So.2d 1232,
1236-37 (La. 1983) ("In the instant case the classifications embodied are not arbitrary and bear a rational
relationship to a legitimate state interest, the protection of its citizens by exposing older minors who are
accused of committing serious and violent felonies to
the usual procedures and sanctions of the state's
criminal law system."). Defendant fails to persuade
the court erred there (even if this claim was properly
before the court now). The automatic transfer provision
is the product of the balancing of policy considerations
involving not only those relating to the special treatment of juveniles but also public safety. It is the
prerogative of the legislature to engage in this
balancing calculus.
The Perque decision also informs our analysis of due
process. In Perque, this court discussed Kent v. United
States, which figures prominently in defendant's
arguments and the district court's reasons here. The
(5) Who violates any law or ordinance, except a child
who, after having become fifteen years of age or older
is charged with having committed first degree murder,
second degree murder, manslaughter, aggravated rape,
or a person who, after becoming sixteen years of age or
older, is charged with having committed armed robbery,
aggravated burglary, or aggravated kidnapping. Once
such a child has been charged with having committed
any offense listed in this Paragraph, the district court
shall retain jurisdiction over his case, even though the
child pleads guilty to, or is convicted of, a lesser
included offense, and a plea to, or conviction of, a lesser
included offense shall not revest the court exercising
juvenile jurisdiction of such a child.

8a
juvenile court in Kent opted to waive its jurisdiction
over a 16-year-old child without holding a hearing,
making any findings, or providing any reason for the
waiver. The United States Supreme Court found the
waiver invalid because it violated the procedures
established by statute in that jurisdiction. Kent, 383
U.S. at 557, 86 S.Ct. at 1055. The Supreme Court's
statutory interpretation was informed by "constitutional
principles relating to due process and assistance of
counsel." Id. The Supreme Court noted that the
juvenile's right to assistance of counsel in conjunction
with the waiver would be "meaningless—an illusion, a
mockery—unless counsel is given the opportunity to
function" at a waiver hearing. Kent, 383 U.S. at 561,
86 S.Ct. at 1057. In addition, the Supreme Court found
the waiver hearing "must measure up to the essentials
of due process and fair treatment." Kent, 383 U.S. at
562, 86 S.Ct. at 1057; see also Application of Gault,
387 U.S. 1, 12-13, 87 S.Ct. 1428, 1436, 18 L.Ed.2d
527 (1967). In Perque, we distinguished the statutory
framework in Kent from that under the predecessor to
Article 305(A):
The situation in the case at bar, however, is
easily distinguishable from that in Kent. In
this case, there are no statutory rights of
which defendants are being deprived. Once
a sixteen-year-old is charged with armed
robbery, the question is not one of "transfer"
of jurisdiction. Rather, the juvenile court is
automatically divested of jurisdiction. This
divestiture is not a matter of discretion on
the part of the juvenile court or the district
attorney, but is controlled by the statute
defining the jurisdiction of the juvenile courts,
La.R.S. 13:1570 A(5).

9a
Since the defendants are not being deprived
of "important statutory rights," the question
is not one of due process, but of whether
La.R.S. 13:1570 A(5) is a valid exercise of the
State's police powers. We have already held
that classifications by age and seriousness of
the offense are not arbitrary or capricious,
and that the classifications bear a rational
relationship to the legitimate state interest of
protecting the public from serious, violent
felonies. State v. Leach, supra. Further, since
the legislative intent is clearly that those
fifteen and sixteen year olds charged with the
enumerated offenses be treated in all respects
as adults, we see no reason to depart from the
rule that the district attorney has "entire
charge and control of every criminal prosecution instituted and pending in his district,
and determines whom, when and how he
shall prosecute."
Perque, 439 So.2d at 1064 (citations omitted).
Defendant here contends our analysis in Perque is
rendered obsolete by more recent United States Supreme
Court jurisprudence, such as Roper v. Simmons,
Graham v. Florida, and Miller v. Alabama, which
recognizes that juveniles are developmentally different
from adults and therefore must be treated differently
from adults. Those decisions, however, are based on
the Eighth Amendment's prohibition against cruel and
unusual punishments and address the importance of
considering the unique characteristics of juveniles in
sentencing.5 None have declared that a juvenile has a
5 Defendant also cites J.D.B. v. North Carolina, 564 U.S. 261,
131 S.Ct. 2394, 180 L.Ed.2d 310 (2011), which (while not grounded
in the Eighth Amendment) held that "so long as the child's age

10a
liberty interest in juvenile court adjudication that
requires certain procedural due process before the
juvenile can be tried as an adult. While we recognize
the importance and necessity that juveniles receive
individualized sentencing determinations, we do not
agree with the district court that the same principles
also apply pretrial to require a waiver hearing focused
on a juvenile's potential for rehabilitation,6 which
overrides the legislature's decision as to how to
structure the jurisdiction of the juvenile courts.
Unlike in Kent, the Louisiana legislature has not
provided certain juvenile offenders with a statutorily
protected liberty interest in juvenile court adjudication but instead has specifically denied such when
the juvenile is accused of a violent and serious felony.
Therefore, defendant, as a 15-year-old charged with
first degree rape, does not have the same statutorily
protected liberty interest in juvenile court adjudication as the juvenile in Kent, which would entitle him
to procedural due process through a transfer hearing
before he could be subjected to adult court jurisdiction.
The juvenile court here is not vested with the discretion to retain or waive jurisdiction. Instead, the Louisiana
was known to the officer at the time of police questioning, or
would have been objectively apparent to a reasonable officer, its
inclusion in the [Miranda] custody analysis is consistent with the
objective nature of that test." J.D.B., 564 U.S. at 277, 131 S.Ct.
at 2406.
6 In fact, in Miller v. Alabama the Supreme Court appeared
somewhat skeptical of a judge's ability to determine a juvenile's
potential for rehabilitation at the pretrial transfer-stage: "Even
when States give transfer-stage discretion to judges, it has
limited utility. . . . [The decisionmaker typically will have only
partial information at this early, pretrial stage about either the
child or the circumstances of the offense." Miller, 567 U.S. at 488,
132 S.Ct. at 2474.

1la
legislature has made the divesture of jurisdiction
mandatory, and defendant is now "subject to the exclusive jurisdiction of the appropriate court exercising
criminal jurisdiction for all subsequent procedures [.1"
La.Ch.C. art. 305(A)(2).
Finally, we note that the state constitution specifically authorizes the legislature to create a provision
like Article 305(A):
The determination of guilt or innocence, the
detention, and the custody of a person who is
alleged to have committed a crime prior to his
seventeenth birthday shall be pursuant to
special juvenile procedures which shall be
provided by law. However, the legislature
may (1) by a two-thirds vote of the elected
members of each house provide that special
juvenile procedures shall not apply to juveniles arrested for having committed first or
second degree murder, manslaughter, aggravated rape, armed robbery, aggravated burglary,
aggravated kidnapping, attempted first degree
murder, attempted second degree murder,
forcible rape, simple rape, second degree
kidnapping, a second or subsequent aggravated
battery, a second or subsequent aggravated
burglary, a second or subsequent offense of
burglary of an inhabited dwelling, or a second
or subsequent felony-grade violation of Part X
or X-B of Chapter 4 of Title 40 of the
Louisiana Revised Statutes of 1950, involving
the manufacture, distribution, or possession
with intent to distribute controlled dangerous
substances, and (2) by two-thirds vote of the
elected members of each house lower the
maximum ages of persons to whom juvenile

12a
procedures shall apply, and (3) by two-thirds
vote of the elected members of each house
establish a procedure by which the court of
original jurisdiction may waive special juvenile procedures in order that adult procedures
shall apply in individual cases. The legislature,
by a majority of the elected members of each
house, shall make special provisions for
detention and custody of juveniles who are
subject to the jurisdiction of the district court
pending determination of guilt or innocence.
La. Const. Art. V § 19. Article 305 was originally
enacted as part of Acts 1991, No. 235, which originated
as HB 939. By passing Article 305, the legislature
"provide [d] that special juvenile procedures shall not
apply to" persons who have been arrested and subsequently indicted for aggravated (now first degree)
rape, among other enumerated crimes. Given that the
state constitution contains an explicit grant of authority, it is difficult to conclude the legislature violated
the state constitution when it exercised that authority.
Statutes are presumed constitutional, and any
doubt is to be resolved in the statute's favor. State v.
Fleury, 01-0871, p. 5 (La. 10/16/01), 799 So.2d 468,
472; State v. Brenner, 486 So.2d 101, 103 (La. 1986);
Theriot v. Terrebonne Parish Police Jury, 436 So.2d
515, 520 (La. 1983). This court has consistently held
that such presumptively constitutional legislative
enactments should be upheld when possible. State v.
Caruso, 98-1415, p. 1 (La. 3/2/99), 733 So.2d 1169,
1170. The party challenging the constitutionality of a
statute bears a heavy burden in proving that statute
unconstitutional. State v. Brooks, 541 So.2d 801, 811
(La. 1989). The constitutionality of the predecessor to
Article 305 has been repeatedly upheld by this Court.

13a
See State v. Foley, 456 So.2d 979, 981 (La. 1984); State
v. Perique, supra; State v. Leach, supra. Likewise, for
the reasons above, we find defendant here failed to
carry that burden of showing that Article 305(A) is
unconstitutional.
Accordingly, we vacate the district court's ruling,
which declared Children's Code art. 305(A) unconstitutional and quashed defendant's transfer to the
district court, and we remand to the district court
for further proceedings consistent with the views
expressed here.
VACATED AND REMANDED

14a
SUPREME COURT OF LOUISIANA
No. 2019-KA-01061
STATE OF LOUISIANA
vs.

HUNTER FUSSELL
ON APPEAL FROM THE 22ND JUDICIAL
DISTRICT COURT, PARISH OF ST. TAMMANY
JOHNSON, Chief Justice, dissents and assigns reasons.
Because I agree with the district court that Louisiana
Children's Code article 305(A) is unconstitutional, I
must respectfully dissent.
La. Ch. C. art. 305(A) provides, in relevant part
(emphasis added):
A. (1) When a child is fifteen years of age or
older at the time of the commission of first
degree murder, second degree murder, aggravated or first degree rape, or aggravated
kidnapping, he is subject to the exclusive
jurisdiction of the juvenile court until either:
(a) An indictment charging one of these
offenses is returned.
(b) The juvenile court holds a continued
custody hearing pursuant to Articles 819
and 820 and finds probable cause that he
committed one of these offenses, whichever
occurs first. During this hearing, when the

15a
child is charged with aggravated or first
degree rape, the court shall inform him that
if convicted he shall register as a sex offender
for life, pursuant to Chapter 3-B of Title 15 of
the Louisiana Revised Statutes of 1950.
(2) Thereafter, the child is subject to the
exclusive jurisdiction of the appropriate court
exercising criminal jurisdiction for all
subsequent procedures, including the review
of bail applications, and the court exercising
criminal jurisdiction may order that the child
be transferred to the appropriate adult
facility for detention prior to his trial as an
adult.
Hunter Fussell was 15 years and four days old when
he was arrested and charged with first degree rape,
indecent behavior with a juvenile, and sexual battery.
He was therefore subject to the exclusive jurisdiction
of the juvenile court pursuant to Article 305(A)(1).
However, because a grand jury subsequently returned
an indictment charging Hunter with one count of first
degree rape, Article 305(A)(2) mandated that he was
thereafter automatically subject to the jurisdiction of
the district court (referred to as "adult court" herein).
In my view, this statutory mandate violates the Fourteenth Amendment Due Process Clause and violates
the fundamental principles underlying United States
Supreme Court jurisprudence set forth in Roper v.
Simmons, 543 U.S. 551, 125 S.Ct. 1183, 161 L.Ed. 2d
1 (2005), Graham v. Florida, 560 U.S. 48, 130 S.Ct.
2011, 176 L.Ed. 2d 825 (2010), J.D.B. v. North Carolina,
564 U.S. 261, 131 S.Ct. 2394, 180 L.Ed. 2d 310 (2011),
and Miller v. Alabama, 567 U.S. 460, 132 S.Ct. 2455,
183 L.Ed. 2d 407 (2012).

16a
Under the Fourteenth Amendment of the United
States Constitution and Article I, §2 of the Louisiana
Constitution, a citizen is protected against deprivations of life, liberty, or property without "due process
of law." Procedural due process requires that before an
individual is deprived of a property or liberty right,
the individual must be provided with notice and an
opportunity to be heard. State v. Golston, 10-2804
(La. 7/1/11); 67 So. 3d 452, 463. This court has held
"[Ole fundamental requirement of due process is
the opportunity to be heard at a meaningful time and
in a meaningful manner." State v. Bazile, 12-2243 (La.
5/7/13), 144 So. 3d 719, 732.
La. Const. art. V, § 19 provides special procedures
for juveniles alleged to have committed crimes before
the age of 17, yet also sets forth a procedure to allow
the legislature to provide that such special procedures
will not apply in certain circumstances. La. Const. art.
V, § 19 states (emphasis added):
The determination of guilt or innocence, the
detention, and the custody of a person who is
alleged to have committed a crime prior to his
seventeenth birthday shall be pursuant to
special juvenile procedures which shall be
provided by law. However, the legislature
may (1) by a two-thirds vote of the elected
members of each house provide that special
juvenile procedures shall not apply to juveniles arrested for having committed . . .
aggravated rape . . . and (2) by two-thirds
vote of the elected members of each house
lower the maximum ages of persons to whom
juvenile procedures shall apply, and (3) by
two-thirds vote of the elected members of
each house establish a procedure by which

17a
the court Of original jurisdiction may waive
special juvenile procedures in order that
adult procedures shall apply in individual
cases. The legislature, by a majority of the
elected members of each house, shall make
special provisions for detention and custody of
juveniles who are subject to the jurisdiction of
the district court pending determination of
guilt or innocence.
Article 305(A) was enacted by the legislature pursuant
to this constitutional authority. Notably and elevant
to this case, Article 305(A) did not track the language
of Article V, § 19 in that it does not provide that
special juvenile procedures shall not apply to juveniles
arrested for first degree (aggravated) rape. Rather,
Article 305(A) specifically Mandates such juveniles
are subject to juvenile court jurisdiction (making
special juvenile procedures applicable) until an indictment is returned, or until the court holds a continued
custody hearing and finds probable cause. Thus,
although the legislature provided for the divestiture of
juvenile court jurisdiction in certain situations, it also
chose to vest jurisdiction initially in the juvenile court
in those same situations.
A comprehensive juvenile system was established
by the Louisiana Legislature to protect and rehabilitate
juvenile offenders and to "insure that he shall receive
. . . the care, guidance, and control that will be
conducive to his welfare and the best interests of the
state . . . ." In re State ex rel. A.J., 09-0477 (La. 12/1/09),
27 So. 3d 247, 267; La. Ch. C. art. 801. This court has
recognized that "the hallmark of the juvenile system
was its disposition, individually tailored to address the
needs and abilities of the juvenile in question, and the
unique nature of the juvenile system is manifested in

18a
its non-criminal or `civil,' nature, its focus on
rehabilitation and individual treatment rather than
retribution, and the state's role as parens patriae in
managing the welfare of the juvenile in state custody."
A.J., 27 So. 3d at 267 (internal quotations and
citations removed). The special procedures applicable
to juvenile adjudication proceedings confer special
rights and immunities. For instance, juvenile records
are confidential (regrettably, Hunter has already lost
this right); juveniles are typically not jailed with
adults; juveniles are not confined past the age of 21;
and juveniles are protected from the stigma of a
permanent criminal record. These special rights
necessarily emphasize rehabilitation over punishment,
and provide a far better opportunity for rehabilitation
at a much lower cost to the state than a convicted
adult. In this case, Hunter was arrested on December
14, 2018, and was initially subject to the exclusive
jurisdiction of the juvenile court. Thus, he was statutorily vested with all of the attendant benefits and rights
to special procedures and had a liberty interest in his
status as a juvenile, subject to juvenile court jurisdiction. To take away these rights and benefits by
mandating an automatic divestiture of juvenile court
jurisdiction after the grand jury handed down the
indictment on February 27, 2019, implicates due
process concerns.
The lack of a hearing vitiates the due process
standards mandated by the Supreme Court in Kent v.
United States, 383 U.S. 541, 86 S.Ct. 1045, 16 L.Ed. 2d
84 (1966). In Kent, the Court recognized the import of
transferring juveniles to the adult system:
[T]here is no place in our system of law for
reaching a result of such tremendous consequences without ceremony-without hearing,

19a
without effective assistance of counsel, without
a statement of reasons. It is inconceivable
that a court of justice dealing with adults,
with respect to a similar issue, would proceed
in this manner. It would be extraordinary if
society's special concern for children, as
reflected in the District of Columbia's Juvenile
Court Act, permitted this procedure. We hold
that it does not.
383 U.S. at 554. While the majority essentially limits
application of Kent based on the specific language of
the D.C. statute involved, I do not find it should be
read so narrowly. Kent, especially when read in
conjunction with the Court's subsequent opinion in
Application of Gault, 387 U.S. 1, 87 S.Ct. 1428, 18
L.Ed. 2d 527 (1967), prescribes constitutional duties
by finding that a determination by a juvenile court on
the issue of whether it should waive jurisdiction over
a juvenile is a critical stage in a criminal proceeding,
and therefore requires a hearing conforming to the
basic requirements of due process. As stated by the
Court in Gault, "In Kent v. United States . . . we
considered the requirements for a valid waiver of the
`exclusive' jurisdiction of the Juvenile Court of the
District of Columbia so that a juvenile could be tried
in the adult criminal court of the District. Although
our decision turned upon the language of the statute,
we emphasized the necessity that the basic requirements of due process and fairness' be satisfied in such
proceedings." 387 U.S. at 12. The decision in Kent
rested on the crucially important distinction between
the treatment afforded children in an adult court and
that granted them in juvenile court. Although the Kent
decision was partially based on the particular statute,
it is clear to me the Court did not intend to limit the
protections solely based on the procedural aspects of

20a
that case. Here, the majority contends Hunter "does
not have the same statutorily protected liberty
interest in juvenile court adjudication as the juvenile
in Kent. . .," but the relevant due process concerns do
not disappear simply because Article 305(A) does not
provide for a hearing as did the statute at issue in
Kent. The fact that our legislature made the divestiture of jurisdiction mandatory does not eliminate
due process concerns, and the impact on the juvenile
remains the same. Kent and Gault considered together
make it clear that juvenile court proceedings affecting
a juvenile's substantial rights must measure up to the
essentials of due process and fair treatment. I find that
juvenile offenders have a constitutionally protected
liberty interest in their status as a juvenile, subject to
juvenile court jurisdiction. As a result, procedural due
process mandates that juvenile offenders are entitled
to a meaningful hearing before they can be removed
from the jurisdiction of the juvenile court and
subjected to adult court jurisdiction pursuant to
Article 305(A).
I recognize this court has previously upheld the
constitutionality of Louisiana's juvenile jurisdiction
statutory scheme in both State v. Leach, 425 So. 2d
1232 (La. 1983) and State v. Perique, 439 So. 2d 1060
(La. 1983). However, I find it relevant that these cases
directly addressed La. R.S. 13:1570(A)(5), the
predecessor to Article 305(A). That statute established
adult court jurisdiction for juveniles fifteen years or
older who were charged with certain enumerated
offenses.' Thus, this case is the first wherein our court

1 La. R.S. 13:1570(A)(5) provided:
Except as otherwise provided herein, the court shall
have exclusive original jurisdiction in proceedings:

21a
has addressed the constitutionality of Article 305(A),
which establishes juvenile court jurisdiction at the
time a juvenile is arrested and charged until an
indictment is returned or the juvenile court makes a
finding of probable cause. Unfortunately, the majority
erroneously finds Article 305(A) constitutional.
Moreover, even if our earlier decisions in Leach and
Perique are directly relevant to our analysis of the
constitutionality of Article 305(A), the district court
correctly noted those decisions should be revisited in
light of subsequent developments in case law, science,
and policy. Most importantly, our understanding of
juvenile behavior has evolved over time since those
decisions were issued. In recent years, the United
States Supreme Court has recognized and reinforced
the special status of juveniles in a series of cases
discussing the culpability of juvenile offenders.
In Roper v. Simmons, supra, the Court held the
Constitution bars capital punishment for juvenile
offenders. Noting that the death penalty is reserved
A. Concerning any child whose domicile is within the
parish or who is found within the parish:
(5) Who violates any law or ordinance, except a child
who, after having become fifteen years of age or older
is charged with having committed first degree murder,
second degree murder, manslaughter, aggravated rape,
or a person who, after becoming sixteen years of age or
older, is charged with having committed armed robbery,
aggravated burglary, or aggravated kidnapping. Once
such a child has been charged with having committed
any offense listed in this Paragraph, the district court
shall retain jurisdiction over his case, even though the
child pleads guilty to, or is convicted of, a lesser
included offense, and a plea to, or conviction of, a lesser
included offense shall not revest the court exercising
juvenile jurisdiction of such a child.

22a
for a narrow category of crimes and offenders, the
Court recognized three general differences between
juveniles and adults which demonstrate that juvenile
offenders cannot reliably be classified among the worst
offenders:
First, . . . [a] lack of maturity and an underdeveloped sense of responsibility are found
in youth more often than in adults and are
more understandable among the young. These
qualities often result in impetuous and illconsidered actions and decisions. * * * In
recognition of the comparative immaturity
and irresponsibility of juveniles, almost every
State prohibits those under 18 years of age
from voting, serving on juries, or marrying
without parental consent.
The second area of difference is that juveniles
are more vulnerable or susceptible to negative
influences and outside pressures, including
peer pressure. * * * This is explained in part
by the prevailing circumstance that juveniles
have less control, or less experience with
control, over their own environment.
The third broad difference is that the
character of a juvenile is not as well formed
as that of an adult. The personality traits of
juveniles are more transitory, less fixed.
543 U.S. at 569-70 (internal quotations and citations
omitted). Further, the Roper Court explained:
The susceptibility of juveniles to immature
and irresponsible behavior means their
irresponsible conduct is not as morally
reprehensible as that of an adult. Their own
vulnerability and comparative lack of control

23a
over their immediate surroundings mean
juveniles have a greater claim than adults to
be forgiven for failing to escape negative
influences in their whole environment . . . .
The reality that juveniles still struggle to
define their identity means it is less supportable to conclude that even a heinous crime
committed by a juvenile is evidence of irretrievably depraved character. From a moral
standpoint it would be misguided to equate
the failings of a minor with those of an adult,
for a greater possibility exists that a minor's
character deficiencies will be reformed. Indeed,
the relevance of youth as a mitigating factor
derives from the fact that the signature qualities of youth are transient; as individuals
mature, the impetuousness and recklessness
that may dominate in younger years can
subside.
Id. at 570 (internal quotations and citations omitted).
Subsequently, in Graham v. Florida, supra, the
Court held the Eighth Amendment does not permit a
juvenile offender to be sentenced to life in prison
without parole for a nonhomicide crime. In so holding,
the Court recognized "developments in psychology
and brain science continue to show fundamental
differences between juvenile and adult minds." 560
U.S. at 68. The Court reasoned:
Juveniles are more capable of change than
are adults, and their actions are less likely to
be evidence of irretrievably depraved character than are the actions of adults. It remains
true that from a moral standpoint it would be
misguided to equate the failings of a minor
with those of an adult, for a greater possibility

24a
exists that a minor's character deficiencies
will be reformed. These matters relate to the
status of the offenders in question; and it is
relevant to consider next the nature of the
offenses to which this harsh penalty might
apply.
560 U.S. at 68-69 (internal quotations and citations
omitted).
In J.D.B. v. North Carolina, supra, the Court held
that a child's age properly informs the Miranda
custody analysis, so long as the child's age was known
to the officer at the time of police questioning, or would
have been objectively apparent to a reasonable officer.
The Court explained:
A child's age is far more than a chronological
fact. It is a fact that generates commonsense
conclusions about behavior and perception.
Such conclusions apply broadly to children as
a class. And, they are self-evident to anyone
who was a child once himself, including any
police officer or judge.
*

*

*

Time and again, this Court has drawn these
commonsense conclusions for itself. We have
observed that children generally are less
mature and responsible than adults, that
they often lack the experience, perspective,
and judgment to recognize and avoid choices
that could be detrimental to them; that they
are more vulnerable or susceptible to . . .
outside pressures than adults, and so on.
*

*

*

25a
Our various statements to this effect are far
from unique. The law has historically
reflected the same assumption that children
characteristically lack the capacity to exercise
mature judgment and possess only an
incomplete ability to understand the world
around them.
*

*

*

Like this Court's own generalizations, the
legal disqualifications placed on children as a
class e.g., limitations on their ability to
alienate property, enter a binding contract
enforceable against them, and marry without
parental
consent—exhibit
the
settled
understanding that the differentiating
characteristics of youth are universal.
*

*

*

As this discussion establishes, our history is
replete with laws and judicial recognition
that children cannot be viewed simply as
miniature adults.
564 U.S. at 272-74 (internal quotations and citations
omitted).
Additionally, in Miller v. Alabama, supra, the Court
held the Eighth Amendment forbids a sentencing
scheme that mandates life without parole for juvenile
offenders. The Court noted that Roper and Graham
emphasized "that the distinctive attributes of youth
diminish the penological justifications for imposing
the harshest sentence on juvenile offenders, even
when they commit terrible crimes." 567 U.S. at 472.
The Court further explained that the mandatory
penalty scheme at issue prevented the sentencer from

26a
taking into account these considerations. "By removing
youth from the balance—by subjecting a juvenile to
the same life-without-parole sentence applicable to an
adult—these laws prohibit a sentencing authority
from assessing whether the law's harshest term of
imprisonment proportionately punishes a juvenile
offender." 567 U.S. at 474.
The majority finds these decisions inapplicable
because they involve sentencing issues under the
Eighth Amendment. The majority fails to acknowledge
that a law mandating adult court jurisdiction, such
as Article 305(A), necessarily exposes juveniles to
more severe punishment and longer sentences, thus
implicating Eighth Amendment concerns and making
these Supreme Court decisions directly relevant.
Moreover, while Roper, Graham and Miller concern
Eighth Amendment issues, these decisions, as well as
J.D.B, supra, are rooted in the Court's acknowledgment of the special status of juveniles based on
documented differences between children and adults.
The mandatory nature of the Article 305(A) precludes
consideration of a host of characteristics and circumstances attendant to the juvenile's age. The need to
recognize the unique characteristics of youthful
offenders is inconsistent with a statute that mandates
a transfer of jurisdiction to adult court—based solely
on age and the offense charged—without giving
the juvenile a right to a hearing. In my view, these
incremental cases from the Supreme Court have
prompted the need to reevaluate the constitutionality
of Article 305(A). It would be nonsensical to recognize
the significance and necessity of considering juvenile
characteristics solely in the context of sentencing.
Moreover, it is troubling to me that Article 305(A)
provides no judicial safeguard to juveniles alleged to

27a
have committed the enumerated offenses—no judicial
counterweight to any arbitrary charging authority by
the state. The state has full control and discretion to
seek an indictment on a particular charge, and this
unilateral charging decision can effectively establish
the jurisdiction over the juvenile. There is no provision
to transfer the juvenile back to juvenile court if
warranted by a particular situation, such as where a
charge is eventually reduced or when a juvenile is
convicted of a lesser crime that would not have
subjected him to adult court jurisdiction initially.
A meaningful hearing, informed by specific criteria to
determine whether a juvenile is suitable to the
rehabilitative processes available in juvenile court,
prior to removing the juvenile from juvenile court
jurisdiction is essential to withstand constitutional
scrutiny.
Whether a defendant is tried in juvenile or adult
court is not merely a matter of procedure. As the state
admitted at oral argument before this court, subjecting a juvenile to trial in adult court has tremendous
consequences and is more significant than a simple
change of venue. Juveniles who are forced into the
adult criminal justice system lose a plethora of
benefits that come with adjudicating the alleged crime
in the juvenile justice system, and they are saddled
with an adult criminal record. Our understanding of
juvenile culpability has changed dramatically over the
last twenty years, shifting the way we treat accused
juvenile offenders. I do not suggest that a juvenile
offender should never be subject to the jurisdiction of
adult court. But, that determination should be made
on an individual basis. A mandated automatic transfer
provision, based on age and offense alone, is constitutionally flawed. Considering the import and ramifications
involved with subjecting a juvenile to adult court

28a
jurisdiction, I would hold that a juvenile is first
entitled to a hearing to comport with due process
requirements to determine whether that juvenile is
amenable to treatment or rehabilitation based on a
careful review of relevant considerations. Because
Article 305(A) does not allow for a hearing before the
juvenile court is divested of jurisdiction, I find it is
unconstitutional.

29a
SUPREME COURT OF LOUISIANA
No. 2019-KA-01061
STATE OF LOUISIANA
vs.

HUNTER FUSSELL
On Appeal from the 22nd Judicial District Court,
Parish of St. Tammany
Hughes, J., dissents for the reasons assigned by
Johnson, C.J.

30a
SUPREME COURT OF LOUISIANA
No. 2019-KA-01061
STATE OF LOUISIANA
vs.

HUNTER FUSSELL
On Appeal from the 22nd Judicial District Court,
Parish of St. Tammany
CHEHARDY, J., dissents for the reasons assigned by
Johnson, C.J.

31a
APPENDIX B
Parish of St. Tammany State of Louisiana
[FILED: April 24, 2019]
Docket Number 613874 G
STATE OF LOUISIANA,
Versus
H.F.
/s/ [Illegible]
DEPUTY CLERK
REASONS FOR JUDGMENT
This matter came before the court on April 9, 2019
on a Motion to Quash a Bill of Indictment due to the
unconstitutionality of La. Ch. C. Art 305A. The court
granted the Motion to Quash and these reasons support
that ruling.
H. F. (or "Hunter" or the "Child" DOB 12/10/2003)
was taken into custody on December 13, 2018 for
allegedly having committed a delinquent act, namely,
First Degree Rape as defined by La. R.S. 14:42, on or
between December 10, 2018 to December 13, 2018.
H.F. was fifteen years and three days old at the time
of the delinquent acts alleged, and therefore is a
"Child" under La. Ch. C. Art 804(1). Absent any specific statutory exceptions, in delinquency proceedings,
such as the one at bar, exclusive jurisdiction is vested
in the court exercising juvenile jurisdiction under
La. Ch. C. Art 303A(1).

32a
On December 18, 2018, the Child was brought before
the Juvenile Court for a continued custody hearing for
the determination of probable cause. After finding
good cause, and waiver by counsel of any delays associated with a finding of probable cause, the continued
custody hearing was continued. Although the court
was not privy to the exchanges between counsel in
the intervening months, it is possible that the State
and counsel for the Child were exploring a negotiated
plea in juvenile court. During this time period the
Child continued to be detained at the Florida Parishes
Juvenile Detention Center.
On February 27, 2019, the grand jury returned an
indictment charging H. F. with the crime of First
Degree Rape of a victim under the age of 13. The
mandatory penalty for an adult found guilty of that
offense is life imprisonment at hard labor without
benefit of probation, parole or suspension of sentence.
Because of the Child's age and the crime alleged,
jurisdiction of Hunter's case was automatically vested
in the district court pursuant to La. Ch. C. Art 305A.
By virtue of random allotment, the matter was
assigned to this division of the court, which coincidentally, also handles all juvenile matters in the 22nd
Judicial District and therefore, handled the proceedings
while the Child was subject to juvenile jurisdiction.
La. Ch. C. Art. 305 provides, in pertinent part, as
follows:
A. (1) When a child is fifteen years of age
or older at the time of the commission of
first degree murder, second degree murder,
aggravated or first degree rape, or aggravated
kidnapping, he is subject to the exclusive
jurisdiction of the juvenile court until either:

33a
(a) An indictment charging one of these
offenses is returned.
(b) The juvenile court holds a continued
custody hearing pursuant to Articles 819 and
820 and finds probable cause that he committed one of these offenses, whichever occurs
first . . .
(2) Thereafter, the child is subject to the
exclusive jurisdiction of the appropriate court
exercising criminal jurisdiction for all subsequent procedures, including the review of bail
applications, and the court exercising criminal jurisdiction may order that the child be
transferred to the appropriate adult facility
for detention prior to his trial as an adult.
It is the finding of this court that Louisiana's
mandatory transfer law violates the Due Process
Clauses of the United States and Louisiana State
Constitutions. In its ruling, this Court does not find
that a delinquent child should never be transferred to
the punishment focused jurisdiction of an adult
criminal court, merely that, prior to transfer, a child
must receive a hearing similar to the one set out in
La. Ch. C. Art. 862 for a determination of whether that
particular child can be rehabilitated with the facilities
available in the juvenile system, prior to transfer.
While the Louisiana Supreme Court has previously
upheld the constitutionality of mandatory transfer in
cases such as State v. Perow, 616 So. 2d 1336 (La.
1993) and State v. Leach, 425 So. 2d 1232 (La. 1983),
this case presents the opportunity to revisit those
holdings based on developments in the law, science
and policy.

34a
"[T]he Due Process Clause provides that certain
substantive rights—life, liberty, and property—cannot
be deprived except pursuant to constitutionally
adequate procedures." Cleveland Bd. of Educ. v.
Loudermill, 470 U.S. 532, 541, 105 S. Ct. 1487, 84 L.
Ed. 2d 494 (1985). The Supreme Court has affirmed
the proposition that juveniles charged with crimes also
have the right to procedural due process. In re Gault,
387 U.S. 1, 30-31, 87 S. Ct. 1428, 18 L. Ed. 2d 527
(1967). That esteemed body has also held that as a
matter of constitutional law, juveniles must be treated
differently than adults in sentencing, as well as being
entitled to special procedural protections. Miller v.
Alabama, 567 U.S. 460, 132 S. Ct. 2455, 2459, 183 L.
Ed. 2d 407 (2012), Roper v. Simmons, 543 U.S. 551,
551, 125 S. Ct. 1183, 1184, 161 L. Ed. 2d 1 (2005) and
Graham v. Fla., 560 U.S. 48, 130 S. Ct. 2011, 2014-15,
176 L. Ed. 2d 825 (2010), as modified (July 6, 2010).
Over fifty years ago, the United States Supreme
Court held that the transfer from juvenile court to
adult court imposed a significant deprivation of liberty
and, therefore, warranted protection under the Due
Process Clause of the 14th Amendment. Kent v. United
States, 383 U.S. 541, 544-45, 86 S. Ct. 1045, 1049, 16
L. Ed. 2d 84 (1966). The Kent court found that transfer
was a critically important action determining vitally
important statutory rights of the juvenile. In that
case, the trial court's failure to follow the statutory
procedures, state the reasons for the transfer, and,
specifically to the case at bar, to hold a hearing,
required reversal of the juvenile's court's transfer
order. "There is no place in our system of law for
reaching a result of such tremendous consequences
without ceremony — without hearing, without effective
assistance of counsel, without a statement of reasons."
Id. at 554. The ruling in Kent makes it clear that

35a
because of the critical nature of the proceedings, a
transfer to adult court should not occur unless and
until the due process protections specifically provided
to juveniles are satisfied.
In addition to the enhanced protection of individual
rights afforded juveniles through Louisiana's due process
clause, La. Const. Art. V, § 19 provides juveniles
alleged to have committed crimes prior to age seventeen,
the constitutional right to special juvenile procedures.
The Louisiana Supreme Court has read the provisions
of Art. V, § 19, to dictate a general rule of non-criminal
treatment of juveniles. State ex rel. S.D., 2002-0672
(La. App. 4 Cir. 11/6/02), 832 So. 2d 415.
In a discretionary (or judicial) transfer hearing
authorized by La Ch. C. Art. 857 and set out in Art.
862, the juvenile court alone must decide, based on all
the facts and circumstances involved in each case,
whether a child facing transfer can be rehabilitated
within the juvenile court system. The burden falls
upon the state to prove, by clear and convincing
evidence, that "there is no substantial opportunity for
the child's rehabilitation through facilities available to
the court." In mandatory transfer cases, like Hunter's,
the juvenile court is prohibited from considering any
of these factors and is only asked to consider if there is
probable cause for the offense alleged. A hearing to
determine probable cause alone, without a probable
cause hearing similar to that provided for in La Ch. C.
Art. 862, is not an adequate safeguard, as it does not
protect a child's individual rights by virtue of his
status as a juvenile, before the deprivation of his
liberty interest by transfer. In mandatory transfer
cases, there is no meaningful determination of an
individual child's amenability to rehabilitation. Thus,

36a
Louisiana's transfer statute lacks the core requirements of Kent.
On several occasions in the last several decades, the
Supreme Court has considered the primacy of the
principals of the culpability of young people and the
legal processes due them. These include Miller v.
Alabama, 567 U.S. 460, 132 S. Ct. 2455, 2458, 183 L.
Ed. 2d 407 (2012), holding that mandatory sentence of
life without possibility of parole for minors violates the
Eighth Amendment; Graham v. Fla., 560 U.S. 48, 130
S. Ct. 2011, 2015, 176 L. Ed. 2d 825 (2010), as modified
(July 6, 2010), ruling that imposition of life without
the possibility of parole for non-homicide crimes committed by juveniles violates the Eighth Amendment;
J.D.B. v. North Carolina, 564 U.S. 261, 272, 131 S. Ct.
2394, 2403, 180 L. Ed. 2d 310 (2011), holding that
age is a significant factor in determining whether a
youth is "in custody" for Miranda purposes; Roper v.
Simmons, 543 U.S. 551, 551, 125 S. Ct. 1183, 1184-85,
161 L. Ed. 2d 1 (2005), holding that imposition of
the death penalty on minors violates the Eighth
Amendment; and Montgomery v. Louisiana, 136 S. Ct.
718, 724, 193 L. Ed. 2d 599 (2016), as revised (Jan. 27,
2016), holding that the ruling in Miller v. Alabama
should be applied retroactively.
This line of cases emphasizes the principle that
juveniles are developmentally different from adults
and that these differences are relevant to juvenile
defendants' constitutional rights. These principals are
supported by a substantial body of developmental
research and neuroscience demonstrating significant
psychological differences between juveniles and
adults. See, e.g., Graham, 560 U.S. at 68 ("developments in psychology and brain science continue to

37a
show fundamental differences between juvenile and
adult minds.")
In all of these decisions, the Court has relied on
three abundant scientifically supported categorical
distinctions between juveniles and adults, in order to
conclude that children must be treated differently
than adults under the law. "First, children have a lack
of maturity and an underdeveloped sense of responsibility, leading to recklessness, impulsivity, and heedless
risk-taking." Miller, supra at 2464. Second, the high
court recognized that children differ from adults in
constitutionally relevant ways because of their susceptibility to outside pressures. Finally, in Miller, 132
S. Ct. at 2464 (quoting Roper, 545 U.S. at 570), the
Court recognized that children and adults differ
because adolescence is a transitional phase. "[A]
child's character is not as well formed as an adult's;
his traits are less fixed and his actions less likely to
be evidence of irretrievabl[e] deprav[ity]." As a result,
"a greater possibility exists that a minor's character
deficiencies will be reformed." Id.
It is the status of being a juvenile, and not the
specific offending behavior at issue, that triggers
differing protections for youth. Mandatory transfer
statutes, however, require certain accused juvenile
offenders to be treated as adults based solely on their
alleged crimes, without any opportunity for a judicial
determination that the particular juvenile at issue
should, in fact, be treated as an adult.
Juveniles have a right not to be automatically
treated as adults. This mandates that a juvenile court
conduct a hearing to consider the individual juvenile
in order to determine whether adult criminal court
is the right place for that particular individual.
Louisiana's own equal protection standard is based

38a
upon the guarantee that state laws generally "affect
alike all persons and interests similarly situated."
State v. Petrovich, 396 So. 2d 1318, 1322 (La. 1981).
Nevertheless, Louisiana's legislature is allowed great
latitude to create classifications under its laws, "so
long as those classifications can withstand constitutional muster." State v. Fleury, 799 So. 2d 468 at 472,
(La. 2001); see also Burmaster v. Gravity Drainage
Dist. No. 2 of the Parish of St. Charles, 366 So. 2d 1381,
1388 (La. 1978).
It is clear that juveniles who have committed a
delinquent act and adults who have committed the
same offense are not groups that are similarly situated. It does not follow, and no research supports, that
a child three days into his 15th birthday is dissimilarly
situated as a child that is four days younger. It may
very well be that an individual child is beyond
rehabilitation at 15 years and three days. At a bare
minimum the state and defense should have a forum
to present evidence of, or contradicting that proposition.
It is because the courts have repeatedly found that
children are different than adults that this court must
find that all children, regardless of the charge they are
accused of committing, should be provided with the
same rights and protections. The existence of the juvenile court system itself is a recognition of the validity
of the separate classification of juveniles for correctional
purposes. State in the Interest of Banks, 402 So.2d 690,
695 (La. 1981). Currently, children who fall under
Louisiana's mandatory transfer law do not get the
same rights and protections as other juveniles. They
are denied the protection of a statutorily created juvenile court and denied equal protection under the law.
Over the last 20 years, our understanding of
juvenile culpability has changed dramatically. Courts

39a
now recognize that "parts of the brain involved in
behavior control continue to develop well into a
person's 20s, and so juveniles differ from adults in
their risk and consequence assessment, impulse control,
tendency toward antisocial behaviors, and [their]
susceptibility to peer pressure." State v. O'Dell, 183
Wn. 2d 680, 691-92, 358 P.3d 359 (2015) (footnotes and
internal quotation marks omitted, quoting Miller
supra). This new knowledge has resulted in a shift in
the way courts treat accused juvenile offenders. When
asked whether juveniles should be treated differently
than adults, both the United States and Louisiana
Supreme Courts have consistently answered in the
affirmative and now "it is the odd legal rule that does
not have some form of exception for children." Miller,
supra at 481, and J.D.B., supra.
Legislation enacted in Louisiana in the last three
years confirms that state policy has begun to embrace
the understanding that adolescent brain development
must inform how juveniles are treated in the justice
system. In 2016, the legislature enacted the "Raise the
Age Louisiana Act," that amended La. Ch. C. Arts. 305
and 306 so as to allow a court discretion in whether to
transfer a child charged as an adult to an adult facility
or to remain in a juvenile detention facility prior to
trial as an adult. More importantly, the Act took the
extraordinary step of amending La. Ch. C. Art. 804 to
gradually include all 17 year olds in the juvenile court
system. (See SB 324.)
La. Ch. C. Art. 897.1, enacted in 1993 required
children adjudicated of certain offenses to serve until
their 21st birthday in secure care without the_benefit
of parole, probation, suspension of imposition or
execution of sentence, or modification of sentence. In
2018, the legislature amended that article to allow for

40a
modification of a juvenile's sentence in certain cases
after a juvenile serves a minimum of thirty-six
months. See La. Ch. C. Art. 897.1 (D). Courts should
view those recent amendments as consistent with the
growing body of law and science that affirms the
fundamental principle that "children are different."
Miller, supra. at 481.
This court acknowledges that the state's interest,
the protection of its citizens, is legitimate. However,
this interest is served and protected by a transfer
hearing. If a particular child is more dangerous, more
culpable, and less subject to rehabilitation than other
juveniles, a transfer hearing allows for the court to
make that determination.
Years of juvenile justice jurisprudence has recognized that a child is not as culpable as an adult who
commits the same offense. The differences between
children and adults have resulted in the Supreme
Court's drawing a bright-line distinction between the
punishments available for children who commit
criminal offenses, even after they are transferred to
criminal court prosecution. (See generally, Graham,
and Miller, supra.) Accordingly, the presumption that
all 15 year olds who commit First Degree Rape are as
culpable as their adult counterparts is not true. In
light of recent Supreme Court jurisprudence that
recognizes that children are different than adults, this
Court must find that Louisiana's mandatory transfer
law La. Ch. C. Art. 305 A, is unconstitutional on its
face, and as applied to Hunter.

41a
THUS DONE AND SIGNED this 24 day of April,
2019, at Covington, La.
/s/ Scott Gardner
JUDGE SCOTT GARDNER, DIVISION G
PLEASE MAIL A COPY TO ALL PARTIES

